APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
_________
Nos. 18-1165, 18-1166
_________
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR
THE COMMONWEALTH OF PUERTO RICO; THE
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS & TRANSPORTATION AUTHORITY,
Debtors,
_________
ASSURED GUARANTY CORPORATION; ASSURED
GUARANTY MUNICIPAL CORPORATION; FINANCIAL
GUARANTY INSURANCE COMPANY; NATIONAL PUBLIC
FINANCE GUARANTEE CORPORATION,
Plaintiffs, Appellants,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
COMMONWEALTH OF PUERTO RICO; FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO
RICO; PUERTO RICO FISCAL AGENCY AND FINANCIAL
ADVISORY AURTHORITY; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO HIGHWAYS &
TRANSPORTATION AUTHORITY; RICARDO ROSSELLÓNEVARES; GERARDO JOSÉ PORTELA-FRANCO; CARLOS

2a
CONTRERAS-APONTE; JOSÉ IVÁN MARRERO-ROSADO;
RAÚL MALDONADO-GAUTIER; NATALIE A. JARESKO,
Defendants, Appellees,
JOSÉ B. CARRIÓN III; ANDREW G. BRIGGS; CARLOS M.
GARCÍA; ARTHUR J. GONZÁLEZ; JOSÉ R. GONZÁLEZ;
ANA J. MATOSANTOS; DAVID A. SKEEL, JR.;
CHRISTIAN SOBRINO,
Defendants.
_________
APPEALS FROM THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
[Hon. Laura Taylor Swain, U.S. District Judge*]
_________
Before
Howard, Chief Judge,
Torruella, and Thompson, Circuit Judges.
_________
Mark C. Ellenberg, with whom Howard R.
Hawkins, Jr., Lary Stromfeld, Ellen V. Holloman,
Gillian Groarke Burns, Thomas J. Curtin, Casey
Servais, Cadwalader, Wickersham & Taft LLP,
Heriberto Burgos-Pérez, Ricardo F. CasellasSánchez, Diana Pérez-Seda, and Casellas Alcover &
Burgos were on brief, for appellants Assured
Guaranty Corp. and Assured Guaranty Municipal
Corp.
*

Of the Southern District of New York, sitting by
designation.

3a
Eric Pérez-Ochoa, Alexandra Casellas-Cabrera,
Lourdes Arroyo-Portela, Adsuar Muñiz Goyco Seda
& Pérez-Ochoa, P.S.C., Jonathan Polkes, Marcia
Goldstein, Gregory Silbert, Kelly DiBlasi, Gabriel A.
Morgan, and Weil, Gotshal & Manges LLP on brief,
for appellant National Public Finance Guarantee
Corporation.
María E. Picó, Rexach & Picó, CSP, Martin A.
Sosland, Jason W. Callen, and Butler Snow LLP on
brief, for appellant Financial Guaranty Insurance
Company.
Mark D. Harris, with whom Timothy W.
Mungovan, Martin J. Bienenstock, Stephen J.
Ratner, Jeffrey W. Levitan, Michael A. Firestein,
Lary Alan Rappaport, Proskauer Rose LLP,
Hermann D. Bauer, and O’Neill & Borges LLC were
on brief, for appellees The Financial Oversight and
Management Board for Puerto Rico, for itself and as
representative for the Commonwealth of Puerto Rico
and the Puerto Rico Highways and Transportation
Authority, and Natalie A. Jaresko.
Luis Marini, Marini Pietrantoni Muñiz, LLC, John
J. Rapisardi, Peter Friedman, Elizabeth L. McKeen,
and O’Melveny & Myers LLP on brief, for appellees
the Puerto Rico Fiscal Agency and Financial
Advisory Authority and Gerardo Portela-Franco.
Luc A. Despins, with whom William K. Whitner,
James B. Worthington, James T. Grogan III, Paul
Hastings LLP, Juan J. Casillas-Ayala, Diana M.
Battle-Barasorda, Alberto J.E. Añeses-Negrón,
Ericka C. Montull-Novoa, and Casillas, Santiago &

4a
Torres LLC were on brief, for Official Committee of
Unsecured Creditors.
Laura E. Appleby, with whom Steven Wilamowsky,
Aaron Krieger, Chapman and Cutler LLP and Kevin
Carroll, as amicus curiae for The Securities Industry
and Financial Markets Association.
Vincent J. Marriott III, with whom Chantelle D.
McClamb, and Ballard Spahr LLP, as amicus curiae
for The National Federation of Municipal Analysts.
_________
March 26, 2019
_________
TORRUELLA, Circuit Judge.
Appellants,
financial guarantee insurers that had insured bonds
from the Puerto Rico Highway and Transportation
Authority (“PRHTA”) (hereinafter the “Insurers”),
appeal from the dismissal of their Amended
Complaint in an adversary proceeding arising within
the debt adjustment proceeding that the Financial
Oversight and Management Board (the “Board”)
commenced on behalf of the PRHTA under Title III
of the Puerto Rico Oversight, Management, and
Economic Stability Act (“PROMESA”), see 48 U.S.C.
§§ 2161-2177. Because the district court did not err
when it dismissed the Insurers’ Amended Complaint
pursuant to Fed. R. Civ. P. 12(b)(6) on the grounds
that neither Section 922(d) nor Section 928(a) of the
United States Bankruptcy Code entitle the Insurers
to the relief they sought, we affirm.

5a
I. Background
1.

PROMESA

This is one of a sequence of appeals related to
PROMESA, a statute enacted by Congress “in June
2016 to address an ongoing financial crisis in the
Commonwealth of Puerto Rico.” In re Fin. Oversight
& Mgmt. Bd. for Puerto Rico, 872 F.3d 57, 59 (1st
Cir. 2017) (citation omitted). To “help Puerto Rico
achieve fiscal responsibility and access to the capital
markets,” the statute created the Board, which has
“the
ability
to
commence
quasi-bankruptcy
proceedings to restructure the Commonwealth’s debt
under a part of the statute often referred to as ‘Title
III.’” Id. PROMESA is largely modeled on municipal
debt reorganization principles set forth in Chapter 9
of the Bankruptcy Code.
2.

The PRHTA Bonds

In 1965, the Commonwealth of Puerto Rico (“the
Commonwealth”) created the PRHTA, a public
corporation,
to
“oversee
and
manage
the
development of roads and various means of
transportation” in the Commonwealth by passing Act
No. 74-1965, known as the “Enabling Act.” Assured
Guar. Corp. v. Commonwealth of Puerto Rico (In re
Fin. Oversight & Mgmt. Bd. of P.R.), 582 B.R. 579,
585-86 (D.P.R. 2018); see generally P.R. Laws Ann.
tit. 9, § 2002. Pursuant to its Enabling Act, the
PRHTA can secure capital by issuing municipal
bonds. The PRHTA has issued several series of
bonds (the “PRHTA Bonds”) under Resolution No.
68-18 and Resolution No. 98-06 (collectively the
“Resolutions”). The Insurers allege that pursuant to

6a
the Enabling Act and the Resolutions, the PRTHA
Bonds are secured by a gross lien on (i) the revenues
derived from the tolls on four highways within the
Commonwealth (the “Pledged Toll Revenues”); (ii)
gasoline, diesel, crude oil, and other special excise
taxes levied by the Commonwealth (the “PRHTA
Pledged Tax Revenues”); and (iii) special excise taxes
consisting of motor vehicle license fees collected by
the Commonwealth (together with the PRHTA
Pledged Tax Revenues, the “PRHTA Pledged Special
Excise Taxes”).
According to the Insurers, the
Puerto Rico Secretary of Treasury is required by
statute to transfer the PRHTA Pledged Special
Excise Taxes to PRHTA each month for the benefit of
PRHTA bondholders. They further allege that the
Pledged Toll Revenues and the PRHTA Pledged
Special Excise Taxes (collectively, the “PRHTA
Pledged Special Revenues”) are the Insurers’
property, which the PRHTA must transfer to the
fiscal agent for the PRHTA Bonds on a monthly basis
to replenish tripartite 1 funds (the “Reserve
Accounts”) held in trust by The Bank of New York
Mellon (“BNYM”).
3.

The Debt Adjustment Proceeding

In March 2017, after the enactment of PROMESA
and appointment of the Board,2 the Board certified a
financial plan by which the PRHTA Pledged Special

1

Each fund established by the Resolutions consists of a bond
service fund, a bond redemption fund, and a reserve fund.
2

For our decision regarding the constitutionality of the Board
members’ appointment, see Aurelius Inv., LLC v.
Commonwealth of P.R., 915 F.3d. 838 (1st Cir. 2019).

7a
Revenues formerly being deposited in the Reserve
Accounts would instead be diverted and subsumed
into the general revenues of Puerto Rico. On May 3
and 21, 2017, the Board commenced debt adjustment
proceedings on behalf of the Commonwealth and the
PRHTA, respectively, pursuant to Title III of
PROMESA.
BNYM continued to make payments to the PRHTA
bondholders through June 20, 2017, when the Puerto
Rico Fiscal Agency and Financial Advisory Authority
(“AAFAF” for its Spanish acronym), on behalf of
PRHTA, instructed BNYM to cease making
scheduled payments from the Reserve Accounts. The
reasoning behind the instruction was that making
such payments would constitute an act “to exercise
control” over PRHTA’s property in violation of the
automatic stay that arose under 11 U.S.C. § 362(a),
as incorporated by Section 301 of PROMESA,
following the filing of the Title III petition on the
PRHTA’s behalf. Thereafter, on July 3, 2017, the
PRHTA defaulted on a scheduled bond payment of
$219 million. BNYM is abstaining from distributing
funds from the Reserve Accounts until this matter is
resolved.3
In June 2017, the Insurers initiated adversary
proceedings against the Commonwealth, the PRHTA,
the Board, the AAFAF, the Governor of the
Commonwealth, and other individual defendants in

3

As of July 3, 2017, the Reserve Accounts contained cash and
investments valued at approximately $76 million.

8a
their official capacity (collectively the “Debtors”).4 In
their Amended Complaint, which included four
claims for relief, the Insurers essentially alleged that
failure to continue to remit the PRHTA Pledged
Special Revenues into the Reserve Accounts and pay
them as payments come due violates Chapter 9 of the
Bankruptcy Code. Specifically, the Insurers’ first
claim sought declarations that the PRHTA Bonds
were secured by special revenues, that the
application of such revenues to payments on the
bonds is exempted from the automatic stay imposed
by Title III of PROMESA, and that failure to
continue to remit the PRHTA Pledged Special
Revenues during the pendency of the Title III
proceedings is in violation of Sections 922(d) and 928
of Chapter 9 of the Bankruptcy Code (which Section
301 of PROMESA makes applicable to Title III
proceedings). The second claim sought declarations
that the funds held in the Reserve Accounts are: (a)
property of the PRHTA bondholders, (b) held in trust
for the benefit of the bondholders, and (c) subject to a
lien in their favor. They further sought a declaration
that the PRHTA lacked enough property interest to
prevent the disbursement of the funds currently held
in the Reserve Accounts unless or until the PRHTA
Bonds are fully retired or defeased. The third claim
sought injunctive relief against further alleged
violations of Sections 922(d) and 928 of the
Bankruptcy Code. Finally, the fourth claim sought
injunctive relief requiring the PRHTA to resume
remittance of the special revenues securing the

4

The Insurers are subrogated to the rights of the PRHTA
bondholders whose claims they have paid.

9a
PRHTA Bonds in accordance with Sections 922(d)
and 928 of the Bankruptcy Code.
The Debtors moved to dismiss the Amended
Complaint under Fed. R. Civ. P. 12(b)(1) and
12(b)(6), for lack of subject matter jurisdiction and
failure to state a claim upon which relief could be
granted. They essentially argued that the Amended
Complaint failed to state a claim for relief because
neither Section 922(d) nor Section 928 of the
Bankruptcy Code requires PRHTA to remit payment
of special revenues to bondholders during the
pendency of the Title III proceedings nor do those
statutes create a cause of action for bondholders to
compel payment. Further, they claimed the PRHTA
bondholders did not have a property interest in the
funds in the Reserve Accounts.
After holding a hearing, the district court granted
the motion to dismiss. Assured, 582 B.R. at 585. It
held that neither provision of Chapter 9 requires or
empowers the court to order continued remittance of
PRHTA Pledged Special Revenues to the Reserve
Accounts or payment of PRHTA Pledged Special
Revenues to the PRHTA bondholders during the
pendency of Title III proceedings. Specifically, the
court found that “Section 928 does not mandate the
turnover of special revenues.” Id. at 593. Rather,
“Section 928(a) merely exempts consensual
prepetition liens on special revenues acquired by the
debtor post-petition from Section 552(a) of the
Bankruptcy Code, which could otherwise invalidate
such liens with respect to revenues acquired postpetition.” Id. Regarding Section 922(d), the court
held that although it “excepts the ‘application’ of
special revenues from the automatic stay,” it does

10a
not “except actions to enforce special revenue liens,”
id. at 596, or otherwise impose a payment obligation,
id. at 594. Therefore, the court concluded, the
Insurers had failed to adequately state a claim upon
which relief can be granted. Id. at 591-96. The court
also held that the Insurers failed to plausibly plead
that the bondholders had a property interest in the
funds of the Reserve Accounts.5 Id. at 597-98.

5

The district court found the second claim for relief to be
premised on the following three different theories of bondholder
interests in the Reserve Accounts: that (1) the PRHTA
bondholders were outright owners of the funds in the Reserve
Accounts and thus neither the automatic stay nor Section 305
of PROMESA barred them from collecting the funds; (2) the
funds in the Reserve Accounts are held in trust for the benefit
of the PRHTA bondholders “under terms that exclude
cognizable property interests of PRHTA in those funds”; and (3)
the funds in the Reserve Accounts are held in trust by BNYM
for the benefit of the PRHTA bondholders. Assured, 582 B.R. at
591. The court concluded that, to the extent the Insurers’ claim
was premised on the third theory, the court lacked subject
matter jurisdiction. It reasoned that a determination of the lien
interest, by itself, would not resolve “the question of whether,
when and from what, if any, funds the PRHTA bondholders are
entitled to be paid.” Id. Accordingly, the issue was not ripe,
and the court lacked subject matter jurisdiction. The court then
addressed the merits of the remaining two theories. Regarding
the ownership-based theory, the court concluded that the
Resolutions and statutory provisions on which the Insurers
relied do not suggest that PRHTA bondholders were granted an
outright ownership interest in the Reserve Accounts or the
funds therein Id. at 597-98. As to the trust-based theory, the
court noted that “[w]hile multiple interpretations could
plausibly be supported” by the language of the Resolutions and
the allegations of the Amended Complaint, each interpretation
contemplates a contingent revisionary beneficial interest in the
trust corpus, and perhaps even title, by PRHTA. Id. at 598.
The court concluded that, given the revisionary interest on the

11a
The Insurers appeal from the district court’s
dismissal of the first, third, and fourth claims of
their Amended Complaint.
II. Discussion6
We review de novo the district court’s grant of a
motion to dismiss. In so doing, we treat all wellpleaded facts in the complaint as true and draw all
reasonable inferences in favor of the plaintiff.
Ocasio-Hernández v. Fortuño-Burset, 640 F.3d 1, 7
(1st Cir. 2011). A complaint will survive dismissal
under Rule 12(b)(6) if it contains “enough facts to
state a claim to relief that is plausible on its face.”
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007).
Whether the Amended Complaint properly pleads a
claim for relief as to the Insurers’ first, third, and
fourth claims hinges on the statutory construction of
Sections 928(a) and 922(d) of the Bankruptcy Code.
We thus turn to those statutes and provide some
statutory context necessary to understand the
parties’ arguments.
part of PRHTA, Section 305 of PROMESA prevented the court
from interfering with the Reserve Accounts. Id. at 598-99.
Hence, the court dismissed the second claim for failure to state
a claim upon which relief can be granted. Id. at 599.
We need not address the district court’s dismissal of the
Insurers’ second claim for relief because the Insurers have
failed to develop on appeal any argument on the PRHTA
bondholders’ property interest in the Reserve Account funds.
See United States v. Zannino, 895 F.2d 1, 17 (1st Cir. 1990).
6

Because the district court correctly decided the issues, and
persuasively explained its reasoning in a detailed opinion, we
see no reason to write at length. See Moses v. Mele, 711 F.3d
213, 216 (1st Cir. 2013).

12a
Section 552(a) of the Bankruptcy Code establishes
generally that “property acquired by the . . . debtor
after the commencement of the case is not subject to
any lien resulting from any security agreement
entered into by the debtor before the commencement
of the case.” 11 U.S.C. § 552(a). Section 928,
however, exempts consensual prepetition liens on
special revenues from application of Section 552(a) in
Chapter 9 cases. Specifically, Section 928 states:
(a) Notwithstanding section 552(a) of this title
and subject to subsection (b) of this section,
special revenues acquired by the debtor after
the commencement of the case shall remain
subject to any lien resulting from any security
agreement entered into by the debtor before
the commencement of the case.
(b) Any such lien on special revenues, other
than municipal betterment assessments,
derived from a project or system shall be
subject to the necessary operating expenses of
such project or system, as the case may be.
11 U.S.C. § 928.
The Insurers argue that Section 928(a) not only
overrides Section 522(a) and thus preserves
prepetition liens, but also requires continued
payments of special revenue bonds, such as the
PRHTA Bonds, during the pendency of the Title III
proceeding to avoid debtor misuse of the property
subject to the lien.
It is elementary that in resolving a dispute over the
meaning of a statute we begin with the language of
the statute itself. Landreth Timber Co. v. Landreth,

13a
471 U.S. 681, 685 (1985). We first “determine
whether the language at issue has a plain and
unambiguous meaning with regard to the particular
dispute in the case.” Robinson v. Shell Oil Co., 519
U.S. 337, 340 (1997). “The plainness or ambiguity of
statutory language is determined by reference to the
language itself, the specific context in which that
language is used, and the broader context of the
statute as a whole.” Id. at 341 (citing Estate of
Cowart v. Nicklos Drilling Co., 505 U.S. 469, 477
(1992); McCarthy v. Bronson, 500 U.S. 136, 139
(1991)). If “the statute’s language is plain, ‘the sole
function of the courts is to enforce it according to its
terms.’” United States v. Ron Pair Enters., Inc.,
489 U.S. 235, 241 (1989) (quoting Caminetti v.
United States, 242 U.S. 470, 485 (1917)).
If,
however, the language is not plain and
unambiguous, we then turn to other tools of
statutory construction, such as legislative history.
See Arnold v. United Parcel Serv., Inc., 136 F.3d 854,
858 (1st Cir. 1998).
We find Section 928(a)’s plain language
unambiguous. Section 928(a) simply provides that
consensual prepetition liens on special revenues will
remain in place after the filing of the petition,
despite the fact that Section 552(a) generally
protects property acquired after the petition from
being subject to prepetition liens.7 That is, without
Section 928(a), pursuant to Section 552(a),

7

For its part, Section 928(b) allows debtors to offset
“necessary operating expenses” of a “project or system” from
“[a]ny such lien on special revenues” “derived from [that]
project or system.” 11 U.S.C. § 928(b).

14a
consensual prepetition liens would be invalidated
with respect to special revenues acquired by the
debtor post-petition. As the district court found,
Section 928, however, is silent about enforcement of
liens or “payment of the secured obligation,” and
does not order any action on the part of the debtor.
Assured, 582 B.R. at 593. We thus agree with the
district court that Section 928 does not mandate the
turnover of special revenues or require continuity of
payments of the PRHTA Bonds during the pendency
of the Title III proceeding. Id.
The Insurers contest the district court’s conclusion
that this reading of Section 928 is supported by the
legislative history of the 1988 Municipal Bankruptcy
Amendments (“1988 Amendments”), Pub. L. No. 100597 (1988). See Assured, 582 B.R. at 593 (quoting a
Senate Report “stating that Section 928 ‘is intended
to negate Section 552(a),’ which ‘could terminate the
security for municipal revenue bonds, but ‘to go no
further’” (quoting S. Rep. No. 100-506, at 12-13, 2223 (1988))). Because the language of the statute is
unambiguous, however, we find it unnecessary to
turn to the legislative history. See Connecticut Nat’l
Bank v. Germain, 503 U.S. 249, 254 (1992) (“When
the words of a statute are unambiguous, then, th[e]
first canon [of statutory construction] is also the last:
‘judicial inquiry is complete.’” (quoting Rubin v.
United States, 449 U.S. 424, 430 (1981))).
The Insurers next argue that Section 922(d) of the
Bankruptcy Code requires Debtors to continue to
turn over the revenues allegedly securing the
PRHTA Bonds and exempts bondholder enforcement
actions from the automatic stays of Sections 362 and
922(a) of the Bankruptcy Code.

15a
Pursuant to Section 362, an automatic stay goes
into effect upon the filing of a bankruptcy petition.
See 11 U.S.C. §§ 362, 901(a). “The automatic stay is
one of the fundamental protections that the
Bankruptcy Court affords to debtors.” Jamo v.
Katahdin Fed. Credit Union (In re Jamo), 283 F.3d
392, 398 (1st Cir. 2002). It is intended to “effectively
stop all creditor collection efforts, stop all
harassment of a debtor seeking relief, and to
maintain the status quo between the debtor and [its]
creditors, thereby affording the parties and the
[c]ourt an opportunity to appropriately resolve
competing economic interests in an orderly and
effective way.” In re Witkowski, 523 B.R. 291, 296
(1st Cir. B.A.P. 2014) (alteration in original) (quoting
Zeoli v. RIHT Mortg. Corp., 148 B.R. 698, 700
(D.N.H. 1993)). The automatic stay is “extremely
broad in scope” and “appl[ies] to almost any type of
formal or informal action against the debtor or the
property of the estate,” In re Slabicki, 466 B.R. 572,
580 (1st Cir. B.A.P. 2012) (quoting Patton v.
Bearden, 8 F.3d 343, 349 (6th Cir. 1993)), including
“any act to . . . enforce any lien against property of
the estate,” 11 U.S.C. § 362(a)(4).8
Section 922(a) expands the scope of the Section 362
automatic stay in Chapter 9 cases to “action[s] or
proceeding[s] against an officer or inhabitant of the
debtor that seeks to enforce a claim against the
debtor,” and to “enforcement of a lien on or arising

8

Section 362(b) establishes certain exceptions to Section
362(a)’s automatic stay, none applicable here. 11 U.S.C.
§ 362(b).

16a
out of taxes or assessments owed to the debtor.”9
11 U.S.C. § 922(a).
Section 922 further provides that notwithstanding
the automatic stays under Sections 362 and 922(a),
“a petition filed under [Chapter 9] does not operate
as a stay of application of pledged special revenues in
a manner consistent with [S]ection [928][ 10 ] of
[Chapter 9] to payment of indebtedness secured by
such revenues.” 11 U.S.C. § 922(d). That is,
pursuant to Section 922(d), the automatic stays of
Sections 362 and 922(a) do not stay the “application”
of “pledged special revenues” to payment of debt
secured by such revenues.
The Insurers take issue with the district court’s
conclusion that although Section 922(d) “excepts the
‘application’ of special revenues from the automatic
stay” -- and thus allows for voluntary payment by the
debtor, “including the application of the debtor’s
9

The statute reads as follows:
A petition filed under this chapter operates as a stay, in
addition to the stay provided by section 362 of this title,
applicable to all entities, of-(1) the commencement or continuation, including the
issuance or employment of process, of a judicial,
administrative, or other action or proceeding against an
officer or inhabitant of the debtor that seeks to enforce a
claim against the debtor; and
(2) the enforcement of a lien on or arising out of taxes
or assessments owed to the debtor.

11 U.S.C. § 922(a).
10

The statute states “section 927,” which the parties and the
district court agree appears to be a scrivener’s error.

17a
funds held by a secured lender to secure
indebtedness” -- it does not except bondholder actions
seeking to enforce special revenue liens, Assured,
582 B.R. at 595-96, or otherwise impose a payment
obligation, id. at 594. They allege that the district
court’s reading of Section 922(d) renders it
“superfluous” because nothing prevents voluntary
action of the debtor even in the absence of Section
922(d). Thus, their argument goes, Section 922(d)’s
purpose is to exempt bondholder enforcement actions
from the stay when their lien is secured by pledged
special revenues. According to the Insurers, Section
922(d) operates as an absolute, categorical exception
to the automatic stay imposed by Sections 362 and
922(a) of the Bankruptcy Code, compelling the
PRHTA to continue to remit the proceeds of the
Special Revenues into the Reserve Accounts (after
covering its operating expenses) and allowing actions
by bondholders to enforce their rights to those
revenues.
Again, we turn first to the statute’s language to
determine its meaning.
Landreth, 471 U.S. at
685 Section 922(d)’s plain language establishes that
the application of pledged special revenues is not a
violation of the automatic stay. It thus permits a
debtor to pay creditors voluntarily during the
pendency of the bankruptcy case and allows a
secured claimholder to apply special revenues in its
possession to pre-petition debt without violating the
automatic stays of Sections 362 and 922(a). Nothing
in the statute’s plain language, however, addresses
actions to enforce liens on special revenues, which
are specifically stayed by Section 362(a)(4) of the
Bankruptcy Code, or allows for the compelling of

18a
debtors, or third parties holding special revenues, to
apply special revenues to outstanding obligations.
When Congress wants to command performance,
turnover, or payment, it knows how to do so
expressly. See, e.g., 11 U.S.C. § 365(d)(5) (providing
that a “trustee shall timely perform all of the”
debtor’s obligations); § 542(a) (instructing that “an
entity” in possession of estate property “shall deliver”
it to the trustee); § 542(b) (directing that “an
entity . . . shall pay such debt to . . . ”). By contrast,
Section 922(d), as the district court found, “simply
carves out one type of action (application of special
revenues) from the automatic stay, without
addressing any other constraints that may apply to
that action, without any grant of relief from other
aspects of the automatic stay, [ ] without imposing
any requirement that the action be taken,” and
without offering any language of the consequences of
failing to apply pledged special revenues to
continued bond payments. Assured, 582 B.R. at 594;
see also 6 Collier on Bankruptcy ¶ 922.05 (16th ed.
2018) (stating that “[S]ection 922(d) is limited to an
exception from the automatic stay [and] does not
suggest that its language compels payment of special
revenues in the possession of the municipality”).
Our construction of Section 922(d) complies with
the tenet that in construing statutory provisions we
must be mindful of “the broader context of the
statute as a whole” and avoid creating a conflict
between various sections. Robinson, 519 U.S. at 341;
see also La. Pub. Serv. Comm’n v. FCC, 476 U.S. 355,
370 (1986). Although Section 922(d) provides an
exception from the automatic stays of Sections 362
and 922(a), it does not carve out Section 904 of the

19a
Bankruptcy Code. Therefore, Section 904, and its
analog at Section 305 of PROMESA -- which
prohibits judicial interference with the debtor’s
property or revenues 11 -- remains in full force in
determining the effect of Section 922(d).
Our
construction that Section 922(d) permits rather than
mandates payment during the course of the
bankruptcy proceedings gives effect to that section
without running afoul of Section 305 of PROMESA.
See 6 Collier on Bankruptcy ¶ 922.05 (16th ed. 2018)
(noting that a broader reading of Section 922(d), such
as the one the Insurers advance, “could run afoul of
[S]ection 904, which prohibits the court from
interfering with any of the property or revenues of
the debtor”) (internal quotation marks and citation
omitted).12
11

Specifically,
establishes:

Section

904

of

the

Bankruptcy

Code

Notwithstanding any power of the court, unless the
debtor consents or the plan so provides, the court may
not, by any stay, order, or decree, in the case or
otherwise, interfere with: (1) any of the political or
governmental powers of the debtor; (2) any of the
property or revenues of the debtor; or (3) the debtor’s
use or enjoyment of any income-producing property.
11 U.S.C. § 904. Section 305 of PROMESA mirrors this
language. See 48 U.S.C. § 2165.
12

The Insurers argue that Section 305 poses no impediment
to their more liberal construction of Section 922(d). Citing In re
City of Stockton, 478 B.R. 8, 22 (Bankr. E.D. Cal. 2012) and In
re County of Orange, 179 B.R. 185, 190 (Bankr. C.D. Cal. 1995),
the Insurers argue that Section 305 of PROMESA does not
foreclose the relief they seek under Section 922(d) of the
Bankruptcy Code because, according to them, the latter is more
specific than the former and a “specific statute controls over a

20a
Furthermore, contrary to the Insurers’ contention,
our construction does not render Section 922(d)
superfluous. Before Congress adopted the 1988
Amendments it was unclear whether Section 362(a)
stayed a creditor from accepting voluntary payments
from a debtor. See, e.g., In re Hellums, 772 F.2d 379,
380-81 (7th Cir. 1985) (per curiam) (noting that a
general without regard to priority of enactment.”
argument is premised on faulty grounds.

Their

First, if Section 922(d) clearly mandated what the Insurers
contend, their argument would be stronger, and we would need
to examine whether one section of PROMESA controls over
another. But, when the plain language of a section is clear, we
will not assign it an alternate interpretation that clashes with
other clearly written sections. As Congress knows how to
command performance when it wants to, so too does it know
how to create exceptions to general rules when that is its
intent. And, while Section 922(d) provides an exception from
the automatic stays of Sections 362 and 922(a), it does not
similarly provide an exception from Section 904 of the
Bankruptcy Code.
Second, the cases cited by the Insurers are clearly inapposite.
Section 305, like Section 904, prohibits judicial interference
with the property and revenues of the debtor “unless the
Oversight Board consents or the plan so provides.” 48 U.S.C.
§ 2165. The cases cited by the Insurers considered the debtors’
voluntary filing of the bankruptcy petitions as their consent for
the exercise of the court’s powers over the debtors. Thus, in the
cases that the Insurers cite, Section 904 posed no impediment
to the courts’ exercise of its power over the debtor. Yet, we
recently rejected this approach in Fin. Oversight & Mgmt. Bd.
for P.R. v. Ad Hoc Grp. of PREPA Bondholders (In re Fin.
Oversight & Mgmt. Bd. for P.R.), where we held that the
Board’s filing of the Title III petition could not be construed as
consent to interfere with the debtor’s property or revenues
because such construction “would render Section 305 a nullity.”
899 F.3d 13, 19 (1st Cir. 2018).

21a
creditor’s “continued acceptance of the payments
under the circumstances was a violation of the stay
regardless of the voluntary or involuntary nature of
the payments”) (internal quotations omitted). Thus,
Section 922(d) served to clarify that a creditor’s
acceptance of a debtor’s voluntary payments are
excepted from the automatic stay.
The Insurers also point us to In re Jefferson Cty.,
474 B.R. 228 (Bankr. N.D. Ala. 2012), to support
their contention that Section 922(d) mandates the
turnover of special revenues. We, however, find
Jefferson County inapposite. In Jefferson County -where the county did not contest that the creditors
held a lien on the special revenues or whether it
should turn over special revenues if said revenues
were determined covered by the scope of the lien -the issue was what revenues were covered by the
lien, rather than whether Sections 922(d) and 928
require remittance of special revenues during the
automatic stay. Because the court in Jefferson
County did not address whether the debtor’s
payments were voluntary or mandatory, that case
does not support the Insurers’ argument that Section
922(d) mandates the turnover of special revenues.
The Insurers also challenge the district court’s
conclusion that its reading of Section 922(d) is
consistent with the legislative history of the 1988
Amendments. See Assured, 582 B.R. at 594-95
(noting that Congress recognized that a municipality
might want to continue to pay bondholders through
the course of Chapter 9 bankruptcy proceedings in
order to “retain access to credit markets” and -mindful that the automatic stay “broadly prohibits
all collection efforts against a debtor including the

22a
application of the debtor’s funds held by a secured
lender to secure indebtedness” -- “sought to permit
such third-party applications . . . to proceed without
having to seek relief from the automatic stay.”
(citing S. Rep. No. 100-506, at 6-7, 11, 21 (1988)))
(internal quotation marks omitted).
But again,
because we find the statute’s language unambiguous,
there is no need to rely on legislative history. See
Connecticut Nat’l Bank, 503 U.S. at 254.
We thus agree with the district court that Section
922(d) only makes clear that the automatic stay is
not an impediment to continued payment, whether
by the debtor or by another party in possession of
pledged special revenues, of indebtedness secured by
such revenues. See Assured, 582 B.R. at 594-95.
The Insurers and their amici make several
arguments rooted in social policy and consideration
of fairness urging the court to adopt their proposed
broader construction of Sections 928(a) and 922(d),
and advance their theory about the possible effect
upholding the district court’s interpretation might
have on the municipal bonds market. Our duty,
however, is to interpret the law, not to re-write it.
See Obergefell v. Hodges, 135 S. Ct. 2584, 2611
(2015) (Roberts, J., dissenting) (“[J]udges have power
to say what the law is, not what it should be.”).
III. Conclusion
In sum, Sections 928(a) and 922(d) permit, but do
not require, continued payment during the pendency
of the bankruptcy proceedings. The two provisions
stand for the premise that any consensual
prepetition lien secured by special revenues will

23a
survive the period of municipal bankruptcy, and,
accordingly, municipalities can elect to voluntary
continue payment on these debts during the course of
the bankruptcy proceedings so as to not fall behind
and thus be at risk of being unable to secure
financing in the future. Because neither provision
requires Debtors to continue to remit the PRHTA
Pledged Special Revenues into the Reserve Accounts
or continue payments to bondholders during the
pendency of the Title III proceedings, the district
court properly dismissed the first, third, and fourth
claims of the Amended Complaint.
Affirmed.

24a
APPENDIX B
_________
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
_________
Nos. 18-1165, 18-1166
_________
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR
THE COMMONWEALTH OF PUERTO RICO; THE
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS & TRANSPORTATION AUTHORITY,
Debtors.
_________
ASSURED GUARANTY CORPORATION; ASSURED
GUARANTY MUNICIPAL CORPORATION; FINANCIAL
GUARANTY INSURANCE COMPANY; NATIONAL PUBLIC
FINANCE GUARANTEE CORPORATION,
Plaintiffs, Appellants,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
COMMONWEALTH OF PUERTO RICO; FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO
RICO; PUERTO RICO FISCAL AGENCY AND FINANCIAL
ADVISORY AURTHORITY; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO HIGHWAYS &
TRANSPORTATION AUTHORITY; RICARDO ROSSELLÓNEVARES; GERARDO JOSÉ PORTELA-FRANCO; CARLOS

25a
CONTRERAS-APONTE; JOSÉ IVÁN MARRERO-ROSADO;
RAÚL MALDONADO-GAUTIER; NATALIE A. JARESKO,
Defendants, Appellees,
JOSÉ B. CARRIÓN III; ANDREW G. BRIGGS; CARLOS M.
GARCÍA; ARTHUR J. GONZÁLEZ; JOSÉ R. GONZÁLEZ;
ANA J. MATOSANTOS; DAVID A. SKEEL, JR.;
CHRISTIAN SOBRINO,
Defendants.
_________
ERRATA SHEET
The opinion of this Court, issued on March 26,
2019, is amended as follows:
Replace the paragraph starting at page 21, line 1,
and ending at page 22, line 7, with the following:
Furthermore, contrary to the Insurers'
contention, our construction does not render
Section 922(d) superfluous. Before Congress
adopted the 1988 Amendments there was
ample reason to believe that Section 362(a)
stayed a creditor from accepting voluntary
payments from a debtor or stayed a creditor
from applying debtor funds already in the
creditor's possession (as security) to the debt.
See, e.g., 6 Collier on Bankruptcy ¶ 362.03
(“[I]nnocent conduct such as the cashing of
checks received from account debtors of
accounts assigned as security may be a
technical violation [of Section 362(a)(6)].”).
Thus, Section 922(d) made clear that a
creditor holding pledged special revenues as
security may apply those revenues to

26a
outstanding
debt,
automatic stay.

notwithstanding

the

27a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
_________
In re:
THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO,
as representative of
THE COMMONWEALTH OF PUERTO RICO, et al.,
Debtors.1
_________
PROMESA
Title III
No. 17 BK 3283-LTS
(Jointly Administered)
_________

1

The Debtors in these Title III Cases, along with each
Debtor’s respective Title III case number listed as a bankruptcy
case number due to software limitations and the last four (4)
digits of each Debtor’s federal tax identification number, as
applicable, are (i) the Commonwealth of Puerto Rico (the
“Commonwealth”) (Bankruptcy Case No. 17 BK 3283-LTS)
(Last Four Digits of Federal Tax ID: 3481); (ii) Puerto Rico
Sales Tax Financing Corporation (“COFINA”) (Bankruptcy
Case No. 17 BK 3284-LTS) (Last Four Digits of Federal Tax ID:
8474); (iii) Puerto Rico Highways and Transportation Authority
(“PRHTA”) (Bankruptcy Case No. 17 BK 3567-LTS) (Last Four
Digits of Federal Tax ID: 3808); (iv) Employees Retirement
System of the Government of the Commonwealth of Puerto Rico
(“ERS”) (Bankruptcy Case No. 17 BK 3566-LTS) (Last Four
Digits of Federal Tax ID: 9686); and (v) Puerto Rico Electric
Power Authority (“PREPA”) (Bankruptcy Case No. 17 BK
04780-LTS) (Last Four Digits of Federal Tax ID: 3747).

28a
ASSURED GUARANTY CORP.; ASSURED GUARANTY
MUNICIPAL CORP.; FINANCIAL GUARANTY INSURANCE
COMPANY; AND NATIONAL PUBLIC FINANCE
GUARANTEE CORPORATION,
Plaintiffs,
v.
COMMONWEALTH OF PUERTO RICO; FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO
RICO; PUERTO RICO FISCAL AGENCY AND FINANCIAL
ADVISORY AUTHORITY; PUERTO RICO HIGHWAYS AND
TRANSPORTATION AUTHORITY; HON. RICARDO
ROSSELLÓ-NEVARES; GERARDO JOSÉ PORTELAFRANCO; CARLOS CONTRERAS-APONTE; JOSÉ IVÁN
MARRERO-ROSADO; HON. RAÚL MALDONADO-GAUTIER;
AND NATALIE A. JARESKO,
Defendants.
_________
Adv. Proc. No. 17-155-LTS in
17 BK 3283-LTS
Adv. Proc. No. 17-156-LTS in
17 BK 3567-LTS
_________
OPINION AND ORDER GRANTING MOTION
TO DISMISS PLAINTIFFS’ COMPLAINT
PURSUANT TO FED. R. CIV. P. 12 (B)(1) AND
(B)(6)

29a
APPEARANCES:
ADSUAR MUÑIZ GOYCO SEDA &
PÉREZ-OCHOA, P.S.C.
By: Eric Pérez-Ochoa
Luis A. Oliver Fraticelli
Alexandra Casellas-Cabrera
Lourdes Arroyo Portela
208 Ponce de Leon Ave, Suite 1600
San Juan, Puerto Rico 00936
WEIL, GOTSHAL & MANGES LLP
By: Jonathan Polkes
Marcia Goldstein
Salvatore A. Romanello
Gregory Silbert
Kelly DiBlasi
Gabriel A. Morgan
767 Fifth Avenue
New York, New York 10153
Attorneys for National Public Finance
Guarantee Corp.
CASELLAS ALCOVER & BURGOS P.S.C.
By: Heriberto Burgos Pérez
Ricardo F. Casellas-Sánchez
Diana Pérez-Seda
P.O. Box 364924
San Juan, Puerto Rico 00936-4924
CADWALADER, WICKERSHAM & TAFT LLP
By: Howard R. Hawkins, Jr.
Mark C. Ellenberg
Ellen Halstead

30a
Thomas J. Curtin
Casey J. Servais
200 Liberty Street
New York, New York 10281
Attorneys for Assured Guaranty Corp. and Assured
Guaranty Municipal Corp.
O’NEILL & BORGES LLC
By: Hermann D. Bauer
Daniel J. Perez Refojos
250 Muñoz Rivera Avenue, Suite 800
San Juan, Puerto Rico 00918-1813
PROSKAUER ROSE LLP
By: Martin J. Bienenstock
Stephen L. Ratner
Eleven Times Square
New York, NY 10036
and
Timothy W. Mungovan
One International Place
Boston, Massachusetts 02110
and
Michael A. Firestein
Lary A. Rappaport
2049 Century Park East
Suite 3200
Los Angeles, California 90067-3206
Attorneys for the Financial Oversight and
Management Board for Puerto Rico and the

31a
Financial Oversight and Management Board for
Puerto Rico, as representative of the Commonwealth
of Puerto Rico
THE LAW OFFICES OF ANDRÉS W.
LÓPEZ, P.S.C.
By: Andrés W. López
902 Fernández Juncos Avenue
San Juan, Puerto Rico 00907
Co-Attorneys for the Puerto Rico Fiscal Agency and
Financial Advisory Authority and Gerardo Portela
Franco
REXACH & PICÓ, CSP
By: María E. Picó
802 Ave. Fernández Juncos
San Juan, Puerto Rico 00907-4315
BUTLER SNOW LLP
By: Martin A. Sosland
5430 LBJ Freeway, Suite 1200
Dallas, Texas 75240
and
Stanford G. Ladner
1700 Broadway, 41st Floor
New York, New York 10019
and

32a
Christopher R. Maddux
J. Mitchell Carrington
1020 Highland Colony Parkway, Suite 1400
Ridgeland, Mississippi 39157
Attorneys for Financial Guaranty Insurance
Company
O’MELVENY & MYERS LLP
By: John J. Rapisardi
Suzzanne Uhland
Peter Friedman
7 Times Square
New York, New York 10036
and
Elizabeth L. McKeen
610 Newport Center Drive, 17th Floor
Newport Beach, California 92660
Attorneys for the Puerto Rico Fiscal Agency and
Financial Advisory Authority and the Hon. Geraldo
Portelo Franco
WANDA VÁZQUEZ GARCED
Secretary of Justice of Puerto Rico
By: Wandymar Burgos Vargas
Deputy Secretary in Litigation
Department of Justice
P.O. Box 9020192
San Juan, Puerto Rico 00902-0192
Attorney for Hon. Ricardo Antonio Rosselló Nevares
and Hon. Raúl Maldonado Gautier

33a
LAURA TAYLOR SWAIN,
United States District Judge
Before the Court is Defendants’ Motion to Dismiss
Plaintiffs’ Amended Complaint Pursuant to Fed. R.
Civ. P. 12 (b)(1) and (b)(6) filed in each of the abovecaptioned adversary proceedings (docket entry2 no.
46 (the “Motion”)). The Court heard argument on the
Motion on November 21, 2017 (the “Hearing”), and
has considered carefully all of the arguments and
submissions made in connection with the Motion.
For the reasons that follow, the Court finds that it
has jurisdiction pursuant to 48 U.S.C. § 2166 of all
but one element of Plaintiffs’ Claims. The remainder
of Plaintiffs’ Claims are dismissed pursuant to
Federal Rule of Civil Procedure 12(b)(6) for failure to
state a claim upon which relief may be granted.3
I.
BACKGROUND
The following recitation of facts is drawn from the
amended complaint (Docket Entry No. 39, the
“Amended Complaint”), except where otherwise
noted.

2

Identical submissions were filed in each of the abovecaptioned adversary proceedings. All docket entries refer to
case no. 17 AP 155, unless otherwise specified.
3

Plaintiffs have requested that the Court take judicial notice
of Exhibits 3-12 that were attached to the Declaration of Ellen
M. Halstead, dated September 12, 2017 (Docket Entry No. 68-1)
and Defendants have raised evidentiary objections to the
requests. The Court need not address the objections and
declines to take judicial notice of the documents, as they are
immaterial to the decisions set forth in this Opinion.

34a
Plaintiffs are financial guarantee insurers that
have insured various bonds issued by certain public
corporations of the Commonwealth of Puerto Rico
(the “Commonwealth” or “Puerto Rico”).
(Am.
Compl. ¶¶ 31-32.) Specifically, Plaintiffs Assured
Guaranty Corp. and Assured Guaranty Municipal
Corp. (collectively, “Assured”) and Financial
Guaranty Insurance Company (“FGIC”) insure bonds
(collectively, the “Authority Bonds”) issued by the
Puerto Rico Highways and Transportation Authority
(“PRHTA”), the Puerto Rico Convention Center
District Authority (“PRCCDA”), and the Puerto Rico
Infrastructure Financing Authority (“PRIFA”, and
together with PRHTA and PRCCDA, the
“Authorities”). (Id. ¶ 32.) Plaintiff National Public
Finance Guarantee Corporation (“National”) also
insures bonds issued by PRHTA. (Id.) Plaintiffs
assert that the Authority Bonds are secured by
statutory and contractual liens on specific pledged
special revenue streams (collectively, the “Pledged
Special Revenues”). (Id.)
PRHTA was created in 1965 pursuant to Act No.
74-1965 (the “Enabling Act”) to, among other things,
oversee and manage the development of roads and
various means of transportation in Puerto Rico. (Id.
¶ 33; see generally 9 L.P.R.A. § 2002.) PRHTA
issued several series of bonds (the “PRHTA Bonds”)
pursuant to Resolution No. 68-18 (docket entry no
39-7, the “1968 Resolution”) and Resolution No. 9806 (docket entry no. 39-8, the “1998 Resolution” and,
together
with
the
1968
Resolution,
the
“Resolutions”). (Id.) Plaintiffs assert that, pursuant
to the Enabling Act and the Resolutions, the PRHTA
Bonds are secured by a gross lien on (i) the revenues
derived from PRHTA’s toll facilities (the “Pledged

35a
Toll Revenues”); (ii) gasoline, diesel, crude oil, and
other special excise taxes levied by the
Commonwealth
(the
“PRHTA
Pledged
Tax
Revenues”); and (iii) special excise taxes consisting of
motor vehicle license fees collected by the
Commonwealth (the “Vehicle Fees” and, together
with the PRHTA Pledged Tax Revenues, the
“PRHTA Pledged Special Excise Taxes”). (Id. ¶ 34.)
The PRHTA Resolutions established sinking funds
(collectively, the “Sinking Funds”).
(Resolutions
§ 401.) Each Sinking Fund includes three separate
accounts (the “Accounts”): (i) a bond service account,
(ii) a redemption account, and (iii) a reserve account.
(Id.) Pursuant to the Resolutions, PRHTA is required
to deposit pledged revenues on a monthly basis with
the fiscal agent. (Id. ¶ 37; Resolutions § 401.) Once
the funds are received, the fiscal agent is required to
deposit the funds in the Accounts based on the
protocol established by the Resolutions. (Resolutions
§ 401.)
In 2016, the Puerto Rico Oversight, Management,
and Economic Stability Act (“PROMESA”) was
enacted by the U.S. Congress and signed into law to
provide, among other things, federal statutory
authority pursuant to which the Commonwealth and
its instrumentalities may restructure their debts.4
See PROMESA § 405(m). Pursuant to PROMESA, a
Financial Oversight and Management Board (the
“Oversight Board”) was established with the purpose
of developing “a method [for the Commonwealth] to
4

PROMESA is codified at 48 U.S.C. §2101 et seq. References
to “PROMESA” in the remainder of this opinion are to the
uncodified version of the legislation.

36a
achieve fiscal responsibility and access to capital
markets.” Id. § 101(a).
“Among other things,
PROMESA (i) establishes a process for the Oversight
Board to approve fiscal plans . . . and budgets of the
Commonwealth and its instrumentalities, including
PRHTA;” (ii) establishes a process for the Oversight
Board to file a bankruptcy-type petition on behalf of
the Commonwealth and its instrumentalities,
including PRHTA; and (iii) establishes “an
alternative
mechanism
for
adjusting
the
Commonwealth’s bond debt or the bond debt of its
instrumentalities
outside
of
a
bankruptcy
proceeding . . . .” (Am. Compl. ¶ 57.)
The Oversight Board has thus far certified, as
relevant
here,
two
fiscal
plans:
(i)
the
Commonwealth’s 2017-2026 fiscal plan (attached as
“Exhibit A” to the Amended Complaint, the “PR
Fiscal Plan”) and (ii) PRHTA’s 2017-2026 fiscal plan
(attached as “Exhibit B” to the Amended Complaint,
the “PRHTA Fiscal Plan” and, together with the
Commonwealth Fiscal Plan, the “Fiscal Plans”). (Id.
¶ 3.) To implement certain measures consistent with
the Fiscal Plans, the Commonwealth enacted a
Fiscal
Plan
Compliance
Law
(H.B.
938,
Commonwealth Act No. 26-2017, the “Compliance
Law”) on or about April 29, 2017. (Id. ¶ 68.)
Plaintiffs assert that the Fiscal Plans authorize the
Commonwealth to redirect and misappropriate the
Pledged Toll Revenues and the PRHTA Pledged
Special Excise Taxes (collectively, the “PRHTA
Pledged Special Revenues”) from PRHTA to the
Commonwealth unlawfully. (Id. ¶ 58.)
On July 1, 2016, PRHTA defaulted on a debt
service payment on PRHTA Bonds aggregating

37a
approximately $4.5 million.
(Id. ¶ 42.)
Approximately $4 million of the default amount was
insured and paid to holders of PRHTA Bonds (the
“PRHTA Bondholders”) by National and $83,039.34
was reinsured and paid to the PRHTA Bondholders
by Assured. (Id.) PRHTA subsequently defaulted on
a debt service payment on January 1, 2017, totaling
approximately $1 million on certain bonds insured
and paid to the PRHTA Bondholders by National.
(Id.)
On May 3, 2017, the Oversight Board commenced a
debt adjustment proceeding on behalf of the
Commonwealth under Title III of PROMESA.5 (Id.
¶ 78.) Shortly thereafter, on May 21, 2017, the
Oversight Board commenced such a proceeding on
behalf of PRHTA. (Id. ¶ 79.) On June 3, 2017,
Plaintiffs commenced the above-captioned adversary
proceedings, alleging that PRHTA’s failure to
continue to make payments on the PRHTA Bonds as
they come due violates Sections 922(d) and 928(a) of
the Bankruptcy Code (which are made applicable in
Title III proceedings by Section 301 of PROMESA)
and requesting declaratory relief regarding the
ownership of certain funds held in the reserve
accounts created by the Resolutions (collectively, the
“Reserve Accounts.”) (See generally Docket Entry No.
1 (the “Complaint”), and the Am. Compl.)
On June 20, 2017, the Puerto Rico Fiscal Agency
and Advisory Authority (“AAFAF”), on behalf of
PRHTA, delivered an instruction to the Bank of New
York Mellon (“BNYM”), as Fiscal Agent, instructing
BNYM to “refrain from making the scheduled July 1,
5

See 48 U.S.C.S. §§ 2164, 2172-2174 (LexisNexis 2017).

38a
2017 payment to the Bondholders from the [Reserve]
Account” and asserting that any such payment would
constitute “an act to exercise control” over PRHTA’s
property in violation of the automatic stay that arose
under 11 U.S.C. § 362(a), as incorporated by Section
301 of PROMESA, upon the filing of PRHTA’s Title
III petition. 6
Following the delivery of the
instruction, on July 3, 2017, PRHTA defaulted on a
scheduled bond payment in the amount of $219
million. (Id. ¶ 109.) Plaintiffs are subrogated to the
rights of the PRHTA bondholders whose claims they
have paid. (Id.)

II.
DISCUSSION
Defendants move pursuant to Rule 12(b)(1) of the
Federal Rules of Civil Procedure (“Rule 12(b)(1)”) to
dismiss the Amended Complaint for lack of subject
matter jurisdiction, and pursuant to Federal Rule of
Civil Procedure 12(b)(6) (“Rule 12(b)(6)”) to dismiss
the Amended Complaint for failure to state a claim
upon which relief may be granted.
A court
“confronted with motions to dismiss under both
Rules 12(b)(1) and 12(b)(6), [] ordinarily ought to
decide the former before broaching the latter.” Deniz
v. Municipality of Guaynabo, 285 F.3d 142, 149 (1st
Cir. 2002) (internal citations omitted).
A. Rule 12(b)(1): Subject Matter Jurisdiction
A wide variety of challenges to the Court’s subject
matter jurisdiction may be asserted under Fed. R.
6

See Docket Entry No. 39-4.

39a
Civ. P. 12(b)(1), including challenges going to
ripeness, mootness, the existence of a federal
question and sovereign immunity. See Valentín v.
Hospital Bella Vista, 254 F.3d 358, 362–63 (1st Cir.
2001). The Court also has an independent duty to
assess whether it has subject matter jurisdiction of
an action. See Fed. R. Civ. P. 12(h)(3); FW/PBS, Inc.
v. City of Dallas, 493 U.S. 215, 231 (1990) (“federal
courts are under an independent obligation to
examine their own jurisdiction”). “When a defendant
moves to dismiss for lack of federal subject matter
jurisdiction, ‘the party invoking the jurisdiction of a
federal court carries the burden of proving its
existence.’” Johansen v. United States, 506 F.3d 65,
68 (1st Cir. 2007) (citing Murphy v. United States,
45 F.3d 520, 522 (1st Cir. 1995)).
1. Impact of PROMESA Section 305.
Defendants argue that Section 305 of PROMESA
deprives this Court of “jurisdiction to grant the relief
Plaintiffs seek, namely, an order declaring PRHTA
revenues must be disbursed to pay principal and
interest on the PRHTA bonds and affirmatively
enjoining Debtors to require those payments.” (Mot.
at 18.) As federal courts are ones of limited
jurisdiction, the Court must address the issue of
subject matter jurisdiction prior to engaging with the
merits of an action. See Fed. R. Civ. P. 12(h)(3)
(providing that if a federal “court determines at any
time that it lacks subject-matter jurisdiction, the
court must dismiss the action.”); see also Kokkonen
v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377
(1994). The Court therefore turns first to the
question of whether Section 305 of PROMESA
implicates the Court’s jurisdiction or instead only

40a
circumscribes the powers of and remedies that are
available to the Court.
Section 305 is titled “Limitation on Jurisdiction
and Powers of Court” and provides that:
Subject to the limitations set forth in titles I
and II of [PROMESA], notwithstanding any
power of the court, unless the Oversight Board
consents or the plan so provides, the court may
not, by any stay, order, or decree, in the case
or otherwise, interfere with—
(1) any of the political or governmental
powers of the debtor;
(2) any of the property or revenues of the
debtor; or
(3) the use or enjoyment by the debtor of
any income-producing property.
48 U.S.C.S. § 2165 (LexisNexis 2017). The language
of Section 305 substantially mirrors that of Section
904 of title 11 of the United States Code (“Section
904” and the “Bankruptcy Code,” respectively), which
similarly limits the powers of courts adjudicating
municipal bankruptcy cases. Defendants’ argument
that Section 305 limits the subject matter
jurisdiction of the Court is focused on the section’s
title, “Limitation on Jurisdiction and Powers of
Court.” 48 U.S.C.S. § 2165 (LexisNexis 2017).
The Supreme Court has cautioned that courts
should avoid characterizing statutory threshold
requirements and other preconditions to suit as
limitations on a court’s subject matter jurisdiction
unless Congress expressly characterizes the

41a
provision in question as such. Arbaugh v. Y & H
Corp., 546 U.S. 500, 515-16 (2006). While a statute’s
title or heading may be instructive in resolving
ambiguities, a court’s determination as to whether a
statutory provision is jurisdictional should turn on
an examination of the statutory language in the
context of the entire statutory scheme. See Pa. Dep’t
of Corrs. v. Yeskey, 524 U.S. 206, 212 (1998)
(declining to rely on a statute’s title where the text
was not ambiguous); see also GMC v. Darling’s, 444
F.3d 98, 108 (1st Cir. 2006) (quoting Darling’s v.
Ford Motor Co., 2003 ME 21, 825 A.2d 344, 346
(2003) (stating that courts “examine[] the plain
meaning of the statutory language and consider[] the
language the context of the whole statutory scheme”)
(internal quotations marks and citations omitted).)
Here, an evaluation of Section 305 in the context of
the immediately following provision of Title III
indicates that Section 305 does not limit the Court’s
subject matter jurisdiction.
Section 306 of
PROMESA explicitly delineates the Court’s subject
matter, personal, and property jurisdiction in the
Title III context, thus implying that Section 305
complements the grant and limitations of jurisdiction
by delineating certain restrictions on the Court’s
remedial powers when functioning within the
jurisdictional landscape mapped by Section 306.
Indeed, the language of Section 305, which focuses
specifically on the Court’s ability to interfere with
the debtor’s governmental functions, revenues, or
property absent Oversight Board consent, clearly
indicates a concern with the powers and remedies a
court may employ in adjudicating a Title III case,
and does not present itself as restricting the court’s
ability to hear matters raising issues implicating

42a
such matters. See Sioux Honey Ass’n v. Hartford
Fire Ins. Co., 672 F.3d 1041, 1052 (Fed. Cir. 2012)
(“[A] court’s power to grant relief is not synonymous
with its ability to exercise jurisdiction, as these two
concepts are separate and distinct. Power does not
necessarily envelop the concept of jurisdiction.”).
Moreover, the mere inclusion of a reference to
jurisdiction in Section 305’s title, without any
elaboration on the issue of jurisdiction in the body of
the provision, does not necessarily indicate an
intention that Section 305 should operate to limit the
Court’s subject matter jurisdiction. The title refers
to both jurisdiction and powers of the Court; the body
of the statute speaks exclusively to power, and
nothing in the statute expressly ties issues of power
to issues of jurisdiction.
Congress’s use of
jurisdictional language in the body of PROMESA
Section 306 reinforces the distinct purposes of the
two statutory provisions.
“‘[W]here Congress
includes particular language in one section of a
statute but omits it in another section of the Act, it is
generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or
exclusion.’” Sioux Honey, 672 F.3d at 1052, quoting
Russello v. United States, 464 U.S. 16, 23 (1983)
(internal quotation marks omitted). In light of the
Supreme Court’s instruction in Arbaugh that
limitations on jurisdiction should not be implied
absent clear Congressional intent, the Court will not
treat Section 305 as a jurisdictional provision7 and
7

While some courts have cursorily characterized 11 U.S.C. §
904, which contains substantially the same provisions and is
similarly titled, as jurisdictional, this Court is aware of no other
courts that have explicitly addressed this issue in light of

43a
will next consider whether the basic constitutional
predicate for the exercise of federal court
jurisdiction—Article
III’s
case-or-controversy
requirement—has been satisfied.
See Arbaugh,
546 U.S. at 515-16.
2. Do Plaintiffs’ Claims Present a Justiciable
Case or Controversy?
Article III courts are empowered to hear only
actual
controversies
that
are
“real
and
substantial . . . admitting of specific relief through a
decree of a conclusive character, as distinguished
from an opinion advising what the law would be
upon a hypothetical state of facts.” Aetna Life Ins.
Co. v. Haworth, 300 U.S. 227, 241 (1937). Such relief
may be declaratory in character “[w]here there is
such a concrete case admitting of an immediate and
definitive determination of the legal rights of the
parties in an adversary proceeding upon the facts
alleged.” Id. at 241. “[T]he question in each case is
whether the facts alleged, under all the
circumstances, show that there is a substantial
controversy, between parties having adverse legal
interests, of sufficient immediacy and reality to
warrant the issuance of a declaratory judgment.”
Md. Cas. Co. v. Pac. Coal & Oil Co., 312 U.S. 270,
273 (1941).
When considering a complaint requesting a
declaratory judgment, courts will often analyze the
Arbaugh. See, e.g., In re Sanitary & Improv. Dist. No. 7, 96
B.R. 967, 970 (Bankr. D. Neb. 1989) (“Therefore, this Court
rules as a matter of law that it has no jurisdiction to entertain
this suit against the SID under Section 904 of the Code or the
Nebraska statutes.”).

44a
case or controversy requirement through the lens of
ripeness. See In re NSCO, Inc., 427 B.R. 165, 176
(Bankr. D. Mass. 2010). A court will first “consider
whether an issue is fit for review, e.g., whether a
challenged . . . action
is
final
and
whether
determination of the merits turns upon facts which
may not yet be sufficiently developed and [will then]
. . . consider the question of hardship, a question
which typically turns upon whether the challenged
action creates a direct and immediate dilemma for
the parties.” El Dia, Inc. v. Hernandez Colon, 963
F.2d 488, 495 (1st Cir. 1992) (quotation marks and
internal citations omitted). “The linchpin of ripeness
under the Declaratory Judgment Act, as in all Article
III cases, is adverseness,” which requires “legal
interests, of sufficient immediacy and reality.”
Rhode Island v. Narragansett Indian Tribe, 19 F.3d
685, 692-93 (1st Cir. 1994) (quoting Md. Cas. Co.,
312 U.S. at 273) (internal quotation marks omitted).
A sound measure of adverseness is “conclusivity,”
which is an evaluation as to whether the “specific
relief [sought] through a decree [is] of conclusive
character, as distinguished from an opinion advising
what the law would be upon a hypothetical state of
facts.” Id. (quoting Aetna, 300 U.S. at 239-42).
In their First Claim for Relief, Plaintiffs assert, and
seek declarations, that the PRHTA bonds are
secured by special revenues within the meaning of
certain sections of the Bankruptcy Code, that the
application of such revenues to payments on the
bonds is exempted from the automatic stay by
Section 922(d) of the Bankruptcy Code, and that
Defendants’ failure to continue to remit such
revenues during these PROMESA Title III
proceedings to satisfy debt service obligations on the

45a
PRHTA Bonds violates Sections 922(d) and 928 of
the Bankruptcy Code, which have been incorporated
into PROMESA. Their Third Claim for Relief seeks
an injunction against further violations of Sections
922(d) and 928. Defendants dispute on a number of
grounds the propositions that Sections 922(d) and
928 require the continuation of PRHTA Bond
payments during the pendency of the Title III
proceedings. The Fourth Claim for Relief seeks an
injunction requiring Defendants to remit revenues
securing the bonds in accordance with Sections
922(d) and 928. The parties’ submissions clearly
frame a ripe controversy with respect to the question
of whether the cited Bankruptcy Code sections
require continued payments, one that can
conclusively be resolved through a declaration of the
import of the statutes and the rights and obligations
of the parties. The claims for injunctive relief frame
and arise from the same current controversy and, if
Plaintiffs prevail on their basic contention, will also
present a ripe issue for adjudication as to the Court’s
power to grant the requested injunctive relief.
Accordingly, the Court concludes that it has subject
matter jurisdiction of Plaintiffs’ First and Fourth
Claims for Relief. Plaintiffs’ Third Claim for Relief
also focuses on Sections 922(d) and 928, seeking an
injunction prohibiting Defendants from further
violating Sections 922(d) and 928. While there is a
question of whether this claim for relief is
duplicative of the First and Fourth Claims for Relief,
it is sufficient to frame a case or controversy for
jurisdictional purposes.
In their Second Claim for Relief, Plaintiffs allege
that all of the funds held in the Reserve Accounts
“are property of the PRHTA Bondholders, held in

46a
trust for their benefit, and subject to a lien in their
favor,” and seek declarations that all funds in the
Reserve Accounts are property of the PRHTA
Bondholders and that “PRHTA lacks an interest
sufficient to prevent funds held in the Reserve
Accounts from flowing to the PRHTA Bondholders,
unless and until all outstanding PRHTA Bonds have
been fully retired or defeased.” (Am. Compl ¶¶ 118,
122-23.) This Second Claim appears to be premised
on three different theories of bondholder interests in
the Reserve Account—that the bondholders are the
direct owners of the funds therein, that the funds are
held in trust under terms that exclude cognizable
property interests of PRHTA in those funds, and that
the funds are property of PRHTA but subject to a
lien in favor of the PRHTA Bondholders. Plaintiffs’
Second Claim presents justiciable issues that are
capable of conclusively resolving their issue
regarding PRHTA’s right to prohibit disbursement of
the Reserve Account to the extent Plaintiffs assert
that PRHTA has insufficient property interests to
prevent the payments, although PROMESA Section
305’s limitations on the Court’s powers to grant relief
may ultimately impede Plaintiffs’ ability to state a
claim upon which relief may be granted. To the
extent, however, their claim of rights in the account
is limited to a lien on property of PRHTA, they have
neither alleged facts nor proffered a legal theory that
would entitle them to a determination that the
parties’ respective property interests are such as to
preclude PRHTA from preventing disbursement of
the funds. A determination of the nature or extent of
any PRHTA lien interest would therefore be merely
advisory, requiring further facts and litigation to
ascertain its impact, if any, on rights to control

47a
disbursements from the Reserve Account. The Court
concludes that it lacks subject matter jurisdiction of
the Second Claim for Relief to the extent that claim
is premised solely on Plaintiffs’ assertion of a lien
interest in the Reserve Account funds.
A
determination of the lien interest, standing alone,
will not resolve conclusively the question of whether,
when and from what, if any, funds the PRHTA
bondholders are entitled to be paid. Such lienrelated issues are implicated in the First and Fourth
Claims for Relief, and may ripen in other respects in
the future in connection, for instance, with claims
and objections to claims, and litigation concerning
confirmation of a plan of adjustment.
The Court now turns to the merits issues presented
by Plaintiffs’ remaining claims and the instant
motion practice—whether Plaintiffs have stated
claims upon which relief may be granted.
B. Rule 12(b)(6): Merits
In order to survive a motion to dismiss for failure to
state a claim upon which relief can be granted under
Rule 12(b)(6), a complaint must contain sufficient
factual matter “to state a claim to relief that is
plausible on its face.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007). A court should “accept
well-pled factual allegations in the complaint as true
and make all reasonable inferences in the plaintiff’s
favor.” Melendez-Morales v. Dep’t of Army, No.
CIV.08-1298 DRD BJM, 2011 WL 925561, at *2
(D.P.R. Jan. 28, 2011) (citing Miss. Pub. Employees’
Ret. Sys. v. Boston Scientific Corp., 523 F.3d 75, 85
(1st Cir. 2008)). The court may “consider documents
the authenticity of which [is] not disputed by the

48a
parties, documents central to the plaintiffs’ claim,
and documents sufficiently referred to in the
complaint.” Id. (citing to Curran v. Cousins, 509
F.3d 36, 44 (1st Cir. 2007)). The complaint must
allege enough factual content to nudge a claim
“across the line from conceivable to plausible.”
Ashcroft v. Iqbal, 556 U.S. 662, 680 (2009) (citing
Twombly, 550 U.S. at 570).
1. Plaintiffs’ First, Third and Fourth Claims
for Relief
As noted above, Plaintiffs request: (1) a declaratory
judgment stating that application of the PRHTA
Pledged Special Revenues does not violate the
automatic stay and that Defendants’ failure to remit
post-petition payments to the PRHTA Bondholders
violates Sections 922(d) and 928(a) of the
Bankruptcy Code; (2) an order enjoining Defendants
from further violations of Section 922(d) and 928(a);
and (3) an injunction ordering Defendants “remit
revenues securing the PRHTA Bonds in accordance
with Sections 922(d) and 928(a).” (Am. Compl.
¶¶ 114, 125, 129.) Defendants move to dismiss
Plaintiffs’ claims for injunctive and declaratory relief
regarding Defendants’ alleged obligation pursuant to
Sections 922(d) and 928(a) to remit payments to
PRHTA Bondholders during the pendency of these
Title III proceedings, arguing that those Bankruptcy
Code sections, which are incorporated into Title III
by Section 301 of PROMESA, do not require PRHTA
to make payments during the pendency of the Title
III proceeding. Because the viability of Plaintiffs’
claims turns on whether the cited Bankruptcy Code
sections mandate current payments, the Court leaves
aside for the moment the question of whether

49a
Plaintiffs have a valid security interest in pledged
special revenues and examines in the first instance
the parties’ contentions concerning Sections 928 and
922(d) of the Bankruptcy Code.
Plaintiffs argue that Section 928(a) of the
Bankruptcy Code not only overrides the general rule
of Bankruptcy Code Section 552(a) (which provides
that property acquired by a debtor after the
commencement of a bankruptcy proceeding is not
subject to liens resulting from pre-petition security
agreements), by providing for attachment of liens
post-petition to the extent they secure certain special
revenue bonds, but also requires, either alone or in
concert with Section 922(d), continuity of payments
on such bonds during the Title III proceeding.
Section 928 reads in its entirety as follows:
(a) Notwithstanding section 552(a) of [the
Bankruptcy Code] and subject to subsection (b)
of this section, special revenues acquired by
the debtor after the commencement of the case
shall remain subject to any lien resulting from
any security agreement entered into by the
debtor before the commencement of the case.
(b) Any such lien on special revenues, other
than municipal betterment assessments,
derived from a project or system shall be
subject to the necessary operating expenses of
such project or system, as the case may be.
11 U.S.C.S. § 928 (LexisNexis 2010). The Court
again turns to the traditional tools of statutory
construction, examining the plain language of the
section in the context of the Bankruptcy Code, and,
to the extent there is any ambiguity, the legislative

50a
history. See Perez-Olivo v. Chavez, 394 F.3d 45, 4951 (1st Cir. 2005) (using standards tools of statutory
construction including the plain language of the
statute, the context of the section within the whole
statute, and legislative history to evaluate the
reasonableness of an agency interpretation). By its
plain language, Section 928(a) merely exempts
consensual prepetition liens on special revenues
acquired by the debtor post-petition from Section
552(a) of the Bankruptcy Code, which could
otherwise invalidate such liens with respect to
revenues acquired post-petition. See 11 U.S.C.S.
§ 552(a)
(LexisNexis
2016);
6 COLLIER
ON
BANKRUPTCY ¶ 928.02 (16th ed. 2017).
Section 928(a) includes no language that could be
construed to implicate the payment of special
revenues to the bondholders or the timing thereof.
The statute clearly and simply provides that certain
pre-petition liens will remain in place after the filing
of the petition, notwithstanding Section 552(a)’s
general protection of after-acquired property from
pre-petition liens. Section 928 does not address lien
enforcement at all, nor does it address payment of
the secured obligation; it thus neither expressly nor
impliedly provides any exception from, inter alia, the
stay imposed by Bankruptcy Code Section 362(a)(4)
on “any act to . . . enforce any lien against property of
the estate.” Nor does any provision of Section 928
purport to mandate action on the part of the obligor.
The Court notes that its reading of the statute, as
unambiguous and limited to protecting post-petition
attachment of certain liens, is consistent with the
legislative history of the 1988 Municipal Bankruptcy
Amendments, Pub. L. No. 100-597 (1988) (the “1988

51a
Amendments”).
The legislative history reflects
Congressional concern that, notwithstanding the
protection provided to municipalities by Bankruptcy
Code Section 904 from involuntary interference with
their governmental functions and use of the
property, Section 552(a) could, by invalidating
special revenue bond liens, subject municipal debtors
to treatment of special revenue obligations as
general obligations. In Section 928, Congress sought
only to address the narrow concern that Section
552(a) not invalidate a lien on post-petition special
revenues. See S. Rep. No.100-506, at 12-13, 22-23
(1988) (stating that Section 928 “is intended to
negate Section 552(a),” which “could terminate the
security for municipal revenue bonds,” but “to go no
further.”); see H.R. Rep. 100-1011, at 4-5, 7-8 (1988)
(Commenting that without the enactment of Section
928 “the risk exists that a lien on special revenues
could be avoided under Bankruptcy Code Section
552(a), effectively turning the revenue bond into a
general obligation bond”); see also Bank of N.Y.
Mellon v. Jefferson Cnty. (In re Jefferson Cnty.), 482
B.R. 404, 432-36 (Bankr. N.D. Ala. 2012) (“[T]he
purpose for the changes . . . brought about by the
1988 Amendments was to make clear that retention
of the pre-bankruptcy lien status of pledged special
revenues should occur in a municipal bankruptcy.”).
Based on the plain language of Section 928, its
context within the Bankruptcy Code, and the
confirmatory content of its legislative history, the
Court concludes that Section 928 does not mandate
the turnover of special revenues.8
8

Plaintiffs, furthermore, have failed to proffer any factual
allegations that would plausibly support a claim that

52a
Plaintiffs’ assertions that Section 922(d) of the
Bankruptcy Code requires Defendants to turn over
the revenues allegedly securing the PRHTA Bonds,
and that Section 922(d) exempts bondholder
enforcement actions from the automatic stays
otherwise in effect pursuant to Sections 362(a) and
922(a) of the Bankruptcy Code,9 are also unavailing.
Section 922(d) provides that:
Notwithstanding
section
362
of
[the
Bankruptcy Code] and subsection (a) of this
section, a petition filed under this chapter does
not operate as a stay of application of pledged
special revenues in a manner consistent with
section 92[8] of [the Bankruptcy Code] to
payment of indebtedness secured by such
revenues.
11 U.S.C.S. § 922(d) (LexisNexis 2010). The plain
language of Section 922(d) makes clear its limited
purpose and effect, and refutes Plaintiffs’ contention
that it imposes a payment obligation. Section 922(d)
exempts “the application of pledged special revenues”
from the automatic stay. It does not address actions
to enforce liens on special revenues, which are stayed
by Section 362(a)(4), and it does not sanction nonconsensual
interference
with
governmental
properties or revenues, which is constrained by
PROMESA Section 305 (which, as noted above,
operates in substantially similar fashion to Section
904 of the Bankruptcy Code).
Nothing in the
language of Section 922(d) requires debtors, or third
Defendants have violated any lien protection afforded to
bondholders by Section 928(a).
9

(Opp’n at 42.)

53a
parties holding special revenues, to apply the
revenues to outstanding obligations. Section 922(d)
simply carves out one type of action (application of
revenues) from the automatic stay, without
addressing any other constraints that may apply to
that action, without any grant of relief from other
aspects of the automatic stay, and without imposing
any requirement that the action be taken. It makes
clear that the automatic stay is not an impediment to
continued payment, whether by the debtor or by
another party in possession of pledged special
revenues, of indebtedness secured by such revenues,
if other relevant circumstances permit or require
such payments. 10
Id.; see also 6 COLLIER ON
BANKRUPTCY ¶ 922.05. Nor does anything in the
plain language of Section 922(d) demonstrate that
Congress intended that the provision give holders of
instruments secured by such revenues the power to
compel continued application of such revenues to
payments during the course of a Chapter 9
bankruptcy proceeding.
This reading of the unambiguous language of
Section 922(d) is consistent with the legislative
history of the 1988 Amendments, which introduced
Section 922(d) into the Bankruptcy Code.
As
relevant here, Committee reports show that
Congress intended that the amendments would
address two issues. First, Congress recognized that
10

Because neither Section 922(d) nor 928 provides for the
compulsory payment of the special revenue to the bondholders,
the Court need not address at this juncture the parties’
arguments concerning the identification of “operating expenses”
to which liens on special revenues may be subject under Section
928(b).

54a
a municipality might want to keep special revenue
bond payments current through the course of
Chapter 9 bankruptcy proceedings in order to retain
access to credit markets, prevent any inadvertent
exposure of general revenues to claims of special
revenue bondholders, and/or to keep itself in
compliance with financial strictures imposed by state
law.11 S. Rep. No.100-506 at 6-7 (“[A] municipality
might well attempt to ignore [the termination of a
pledge under Section 552] and continue to pay
bondholders as originally promised” in order to
“ensure the debtor’s continued access to credit
markets.”); H.R. Rep. 100-1011, at 3, 7 (“[S]ection
922[(d)] states that the automatic stay of the
Bankruptcy Code . . . does not operate to stay paying
pledged revenues”). Second, Congress, realizing that
the automatic stay imposed by Section 362(a) of the
Bankruptcy Code broadly prohibits all collection
efforts against a debtor including the application of
“the debtor’s funds held by a secured lender to secure
indebtedness,” sought to permit such third-party
applications,
in
the
context
of
municipal
restructurings, to proceed without having to seek
relief from the automatic stay. S. Rep. No.100-506 at
11, 21. Congress did not, however, exempt such
application of revenues by third parties from the
11

Plaintiffs point to a passage in the Senate Report that
observes that “[r]easonable assurance of timely payment is
essential to the orderly marketing of municipal bonds and notes
and continued municipal financing” as evidence that Section
922(d) was intended to mandate payment. S. Rep. No.100-506
at 21. This observation is, however, equally consistent with the
proposition that Congress sought to permit municipalities to
continue to pay special revenues voluntarily in order to
maintain their continued standing in credit markets.

55a
restrictions on non-consensual interference with
debtor property that are imposed by Section 904 of
the Bankruptcy Code in connection with municipal
bankruptcies and by Section 305 of PROMESA in
connection with this Title III proceeding. As with
Section 928, there is no indication that Congress
intended to require continued payments, or to grant
bondholders power to compel such payments, and the
statute is silent with respect to the consequences of
failure to apply pledged special revenues to timely
continued bond payments.
This narrow, straightforward reading of Section
922(d) is consistent with Section 904 of the
Bankruptcy Code and, as relevant here, Section 305
of PROMESA and gives adequate effect to both
sections.
The Court is mindful that, “[w]here
possible, [different] provisions of a statute should be
read so as not to create a conflict,” but “no
construction should be adopted which would render
statutory words or phrases meaningless, redundant
or superfluous.” La. Public Serv. Comm’n v. FCC,
476 U.S. 355, 370 (1986) (statutes should be read to
avoid conflicts between various sections); United
States v. Ven-Fuel, Inc., 758 F.2d 741, 751-52 (1st
Cir. 1985) (statutes should be interpreted to give
effect to all words and phrases). Reading Section
922(d) to permit, but not compel, bond payments
gives meaning to Section 922(d) while also respecting
the Bankruptcy Code and PROMESA prohibitions on
judicial
interference
with
a
municipality’s
governmental functions and revenues.
See La.
Public Serv. Comm’n, 476 U.S. at 370 (statutes
should be read to avoid conflicts between various
sections); see Ven-Fuel, 758 F.2d at 751-52 (statutes
should be interpreted to give effect to all words and

56a
phrases). Indeed, the legislative history evidences
Congress’ concern that applicability of the automatic
stay provisions to municipality-authorized payments
on revenue bonds would be inconsistent with the
protections afforded to municipalities under Section
904. See S. Rep. No.100-506 at 21 (“the use of an
automatic stay may be contrary to Section 904 and
interfere with the government, affairs and the
municipality’s use or enjoyment of income producing
property.”).
Plaintiffs cite In re Jefferson County, 474 B.R. 228
(Bankr. N.D. Ala. 2012), in support of their
argument that Section 922(d) mandates the turnover
of special revenues. While the Jefferson County
court made references to expectations of continued
payment of pledged special revenues during that
municipal bankruptcy case, no issue of refusal to pay
had been presented to the court.
Rather, the
question before the court was what funds qualified as
pledged special revenues pursuant to Sections 922(d)
and 928 of the Bankruptcy Code. Id. at 262-74.12
Plaintiffs’ alternative theory, that Section 922(d)
exempts bondholder enforcement actions from the
automatic stay, is similarly unavailing. As explained
above, the plain language and the legislative history
of Section 922(d) suggest that Congress, in granting
the exemption, only permitted municipalities and
others in possession of pledged special revenues to

12

The Jefferson County court’s decision in a related
proceeding, Bank of N.Y. Mellon v. Jefferson Cnty. (In re
Jefferson Cnty.), was similarly limited to an issue arising from
a dispute of over the computation of ongoing post-petition
payments. See generally 482 B.R. 404 (Bankr. N.D. Ala. 2012).

57a
apply those revenues to the relevant debt without
running afoul of the automatic stay. Sections 362(a)
and 922(a), on the other hand, explicitly stay the
prosecution of certain actions against the debtor.
Section 922(d) excepts the “application” of special
revenues from the automatic stay but does not
address other types of enforcement actions that are
stayed by sections 362(a) and 922(a). The Court
therefore concludes that Section 922(d) does not
except actions to enforce special revenue liens.
Finally, in their opposition brief, Plaintiffs request
that the Court invoke Bankruptcy Code Section 105
and use its equitable power to “issue any order,
process, or judgment that is necessary or appropriate
to carry out the provisions of [the Bankruptcy Code]”
to require Defendants to remit the special revenues
to PRHTA Bondholders. See 11 U.S.C.S. § 105(a)
(LexisNexis 2014). The Court’s authority under
Section 105 is discretionary and “should not be used
contrary to the clear wording of the Bankruptcy
Code, its legislative history, and the Rules of
Bankruptcy Procedure.” Marrama v. Citizens Bank
of Mass., 313 B.R. 525, 532 n.6 (B.A.P. 1st Cir. 2004).
Because neither Section 922(a) nor 928 mandates the
turnover of funds, the Court finds that Section 105
does not authorize the transformation of a
permissive Bankruptcy Code provision in to a
mandatory one. See id.
Because neither Section 922(d) nor Section 928
requires or empowers the Court to order the
payment of the pledged special revenues to the
PRHTA Bondholders, Plaintiffs’ First, Third and
Fourth Claims for Relief fail to state claims upon

58a
which relief may be granted and are therefore
dismissed.13
2. Second Claim for Relief
In the Second Claim for Relief of the Amended
Complaint, Plaintiffs seek orders declaring that
(i) all funds held in the Reserve Accounts are
property of the PRHTA Bondholders and (ii) PRHTA
lacks an interest sufficient to prevent funds held in
the Reserve Accounts from flowing to the PRHTA
Bondholders, unless and until all outstanding
PRHTA Bonds have been fully retired or defeased.
(Am. Compl. ¶¶ 122-23.) As noted above, the
structure of the allegations in Plaintiffs’ Second
Claim for Relief, particularly in paragraph 118 of the
Amended Complaint, suggests that Plaintiffs are
proceeding on three theories of entitlement to the
reserve funds—first, that the PRHTA Bondholders
own outright the funds in the Reserve Account (See
Am. Comp. ¶ 118 (“all funds in the Reserve Accounts
are property of the PRHTA Bondholders”)), second,
that the PRHTA Bondholders are beneficiaries of a
trust that holds the funds in the Reserve Account
(see id. (“all funds in the Reserve Accounts are . . .
held in trust for their benefit”)), and third, that the
PRHTA Bondholders hold a lien on the funds in the
13

Plaintiffs’ request, in the First Claim for Relief, for a
declaration that “the filing of a Title III petition by PRHTA does
not operate as a stay of the application of PRHTA Pledged
Special Revenues to the payment of the PRHTA bonds” (Am.
Compl. ¶ 113) does not, in and of itself, frame a justiciable case
or controversy. There appears to be no dispute that the statute
says what it says, to wit, that application of pledged special
revenues is not stayed. Thus, a grant of the relief sought in
paragraph 113 would be a redundant advisory opinion.

59a
Reserve Account (see id. (“all funds in the Reserve
Accounts are . . . subject to a lien in their favor”)).
The Court has already determined that the Court
lacks subject matter jurisdiction of the Second Claim
for Relief to the extent it is premised solely on the
existence of a lien. The Court will now address the
merits of Plaintiffs’ ownership- and trust-based
theories.
a. Bondholders
Owners

as

Reserve

Account

Plaintiffs allege that they (or their subrogors) own
the Reserve Account funds and, on the basis of such
alleged ownership, assert that neither the automatic
stay nor Section 305 of PROMESA presents a barrier
to collection of the funds because they are not the
property of any Title III debtor. Indeed, Plaintiffs
assert throughout the Amended Complaint that the
“funds held in the Reserve Accounts are the exclusive
property of the PRHTA Bondholders” and not of the
Commonwealth.14 (Am. Compl. ¶¶ 4, 6, 35, 36.) In
support of this proposition, Plaintiffs appear to rely
on Section 401 of the Resolutions and certain
statutory provisions. (Id. ¶¶ 4, 35-36, 106).
Section 401 of the 1968 Resolution provides, in
relevant part, that:
The moneys in [the Reserve] Account[] shall be
held by the Fiscal Agent in trust and applied
14

Although Plaintiffs appear to assert distinct theories of
outright ownership and beneficial ownership of the Reserve
Account assets, the Amended Complaint tends to conflate these
two arguments and the factual allegations supporting them.
(See Am. Compl. ¶ 35.)

60a
as hereinafter provided with regard to . . .
such . . .
Account
and,
pending
such
application, shall be subject to a lien and
charge in favor of the holders of the bonds
issued and outstanding under this Resolution
and for the further security of such holders
until paid out or transferred as herein
provided.
(Docket Entry No. 39-7 at 41.) Section 401 of the
1998 Resolution includes language that is
substantially similar. (See Docket Entry No. 39-8 at
47.) These provisions are devoid of language that
could plausibly support an inference that PRHTA
has conferred a full exclusive ownership interest in
Reserve Account funds on the PRHTA Bondholders.
Indeed, the recitations that the funds are to be held
“in trust” and are subject “to a lien and charge” for
“the further security” of the Bondholders are facially
incompatible with full legal ownership of the funds
in the Reserve Accounts by the PRHTA Bondholders.
“[T]he assertion of a lien is inconsistent with the
assertion of [a] title” interest. William W. Bierce,
Ltd. v. Hutchins, 205 U.S. 340, 347 (1907). The
existence of a trust is equally inconsistent with full,
outright ownership because a trust divides
ownership of property, placing legal title with trustee
while the beneficiary enjoys an equitable interest.
See U.S. Fid. & Guar. Co. v. Guzman, No. CIV. 101078 FAB/MEL, 2012 WL 4790314, at *5 (D.P.R.
Sept. 20, 2012), report and recommendation adopted
sub nom. United States Fid. & Guar. Co. v. CobianGuzman, No. CIV 10-1078 (FAB), 2012 WL 12996294
(D.P.R. Oct. 5, 2012) (citing 31 L.P.R.A. § 2541).

61a
The statutes cited by Plaintiffs only authorize the
collection, deposit, and pledge of the highway tolls
and excise taxes, and do not in any way suggest that
the PRHTA Bondholders were granted an ownership
interest in such funds or accounts. See 13 L.P.R.A.
§ 31751(a)(1) (authorizing the deposit and pledge of
taxes collected on petroleum products and governing
the payment of associated bonds); 9 L.P.R.A. § 2021
(authorizing the deposit and pledge of vehicle license
fees and prescribing the use of such funds); 9
L.P.R.A. § 5681 (same).15
The Court finds that Plaintiffs have failed to plead
plausibly that the PRHTA Bondholders hold an
outright ownership interest in the Reserve Accounts.
b. Bondholders as Beneficiaries of a Trust
The Court now turns to Plaintiffs’ assertion that
the funds held in the Reserve Accounts are “held in
trust” by the fiscal agent, BNYM, for the benefit of
the PRHTA Bondholders. (See, e.g., Am. Compl.
¶¶ 105, 118.) Plaintiffs rely on Sections 401 and 501
of the 1968 Resolution, as well as Sections 401 and
410 of the 1998 Resolution.16 Section 501 of the 1968
Resolution is titled “Deposits Constitute Trust
Funds; Security for Deposits” and provides, in
15

Plaintiffs also reference 9 L.P.R.A. § 2013(a)(2), which
grants bondholders the right to commence a suit against
PRHTA for an accounting “as if it were the trustee of an
express trust.” The right to sue PRHTA “as if it were the
trustee” provides no plausible basis for an inference that the
bondholders already own the revenues.
16

The relevant language of Section 401 of the 1968 Resolution
is substantially similar to that of Section 401 of the 1998
Resolution.

62a
relevant part, that “[a]ll moneys deposited with the
Fiscal Agent under the provisions of [the] Resolution
shall be held in trust . . . and shall not be subject
to lien or attachment by any creditor of [PRHTA].”
Id. § 501 (emphasis added) (Docket Entry No. 39-7).
The Section goes on to state that “[a]ll moneys
deposited with the Fiscal Agent [] shall be
continuously secured, for the benefit of the Authority
and the holders of the bonds . . . .” Id. Section 410 of
the 1998 Resolution provides that “moneys held for
the credit” of the relevant Reserve Account “shall be
held in trust and disbursed by the Fiscal Agent.”
1998 Resolution § 410 (Docket Entry No. 39-8).
Sections 207 and 711 of the 1998 Resolution also
make reference to “trusts [] created” by the
resolution. 1998 Resolution §§ 207, 711
Defendants argue that the use of the word “trust”
in the resolutions is not, alone, sufficient to create a
trust under the law of Puerto Rico, and that the full
nature of the contemplated transaction should be
considered. Defendants assert that the funds in the
Reserve Accounts are only “held in trust first for the
‘further security’ of the [PRHTA] [B]ondholders and
then to be disbursed to PRHTA once the bondholders
are fully paid” and, as such, the funds are “not held
in trust for the sole purpose of paying the
bondholders.” (Mot. at 23 (citing 1968 Resolution
§ 401; 1998 Resolution § 401).)
While multiple interpretations could plausibly be
supported by the documentation and the allegations
of the Amended Complaint, each contemplates that
PRHTA has title or at minimum some contingent
reversionary beneficial interest in the trust corpus.
The
Amended
Complaint
acknowledges,

63a
furthermore, that public revenues are the source of
the Reserve Funds. Under these circumstances,
PROMESA Section 305’s prohibitions on interference
with Debtor property interests, revenues and use
and enjoyment of income-producing property deprive
this Court of power to interfere with the Debtors’
dealings with the Reserve Fund property. 17 The
Second Claim for Relief, accordingly, fails to state a
claim upon which relief may be granted to the extent
it is premised on the contention that the Reserve
Fund assets are held in trust for bondholders.
III.
CONCLUSION
For the foregoing reasons, Defendants’ motion
pursuant to Federal Rule of Civil Procedure 12(b)(6)
to dismiss the First, Third and Fourth Claims for
Relief of the Amended Complaint is granted. The
Second Claim for Relief is dismissed pursuant to
Rule 12(b)(6) to the extent that Claim for Relief is
premised on a claim of outright PRHTA Bondholder

17

Defendants, citing to cases applying Section 541 of the
Bankruptcy Code, argue that “a remote or theoretical
contingent reversionary interest in a debt service reserve fund
is insufficient to make such a fund property of the estate.”
(Opp’n at 52.) However, the issues before the Court is not
whether a contingent reversionary interest constitutes property
of the debtor’s estate for purposes of Section 541 of the
Bankruptcy Code.
Section 541 is not incorporated into
PROMESA and Section 305 of PROMESA does not reference
“property of the estate.” Instead, Section 305 deprives this
Court of power to interfere with, among other things, “any of
the property” of the debtor.
See 48 U.S.C.S. § 2165(2)
(LexisNexis 2017).
A contingent reversionary interest
constitutes property of the debtor.

64a
ownership of the funds in the Reserve Accounts or
trust beneficiary status, and dismissed pursuant to
Rule 12(b)(1) to the extent it is premised on a lien on
the Reserve Accounts. This Opinion and Order
resolves docket entry nos. 46 and 47 in 17 AP 155,
and docket entry nos. 48 and 49 in 17 AP 156. The
Clerk of Court is directed to enter judgment
accordingly and close this adversary proceedings.

SO ORDERED.

Dated: January 30, 2018
/s/ Laura Taylor Swain
LAURA TAYLOR SWAIN
United States District Judge

65a
APPENDIX D
_________
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
_________
Nos. 18-1165, 18-1166
_________
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR
THE COMMONWEALTH OF PUERTO RICO; THE
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS & TRANSPORTATION AUTHORITY,
Debtors.
_________
ASSURED GUARANTY CORPORATION; ASSURED
GUARANTY MUNICIPAL CORPORATION; FINANCIAL
GUARANTY INSURANCE COMPANY; NATIONAL PUBLIC
FINANCE GUARANTEE CORPORATION,
Plaintiffs, Appellants,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE FOR THE
COMMONWEALTH OF PUERTO RICO; FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO
RICO; PUERTO RICO FISCAL AGENCY AND FINANCIAL
ADVISORY AURTHORITY; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO HIGHWAYS &
TRANSPORTATION AUTHORITY; RICARDO ROSSELLÓNEVARES; GERARDO JOSÉ PORTELA-FRANCO; CARLOS

66a
CONTRERAS-APONTE; JOSÉ IVÁN MARRERO-ROSADO;
RAÚL MALDONADO-GAUTIER; NATALIE A. JARESKO,
Defendants, Appellees,
JOSÉ B. CARRIÓN III; ANDREW G. BRIGGS; CARLOS M.
GARCÍA; ARTHUR J. GONZÁLEZ; JOSÉ R. GONZÁLEZ;
ANA J. MATOSANTOS; DAVID A. SKEEL, JR.;
CHRISTIAN SOBRINO,
Defendants.
_________
Before
HOWARD, Chief Judge,
TORRUELLA, LYNCH, THOMPSON, KAYATTA, and
BARRON,* Circuit Judges.
_________
ORDER OF COURT
Entered: July 31, 2019

The petition for rehearing having been denied by
the panel of judges who decided the case, and the
petition for rehearing en banc having been submitted
to the active judges of this court and a majority of
the judges not having voted that the case be heard en
banc, it is ordered that the petition for rehearing and
the petition for rehearing en banc be denied.

*

Judge Barron is recused and did not participate in this
matter.

67a
KAYATTA, Circuit Judge, with whom
HOWARD, Chief Judge, TORRUELLA, Circuit
Judge, and THOMPSON, Circuit Judge, join,
statement on denial of rehearing en banc. The
central issue in this case is whether the creditorbondholders, without first obtaining permission from
the Title III court, may commence a judicial
proceeding against a Commonwealth debtor to obtain
a court order restoring the flow of post-petition
pledged special revenues from the debtor. Two
panels of this court recently held that sections 922
and 928 of the municipal bankruptcy code do not
afford creditors a shortcut to bypass the requirement
of obtaining traditional stay relief in order to bring
such an enforcement action. See Ambac Assurance
Corp. v. Commonwealth of Puerto Rico (In re Fin.
Oversight & Mgmt. Bd. for P.R.), 927 F.3d 597, 604–
05 (1st Cir. 2019); Assured Guar. Corp. v. Fin.
Oversight & Mgmt. Bd. for P.R. (In re Fin. Oversight
& Mgmt. Bd. for P.R.), 919 F.3d 121, 127–32 (1st Cir.
2019). Because I believe that the dissent’s objection
to our denial of the creditors’ petition for rehearing
en banc is unsupported by the text of sections 922
and 928 and misconstrues the legislative context and
history accompanying those provisions, I elaborate
on my support for the panel’s holding and for the
denial of the petition.
I.
The creditors’ desire to commence a proceeding
without permission from the Title III court
implicates section 362(a) of the bankruptcy code,
which automatically stays a broad variety of creditor
actions against the debtor or the debtor’s property

68a
upon the debtor’s filing of a bankruptcy petition. See
generally 11 U.S.C. § 362(a). One of the creditor
actions that section 362(a) stays is the
“commencement . . . of
a
judicial . . . proceeding
against the debtor that . . . could have been
commenced before the commencement of the
[bankruptcy] case . . . or to recover a claim against
the debtor that arose before the commencement of
the [bankruptcy] case.” Id. § 362(a)(1). Under other
subsections, the stay also applies to many creditor
actions that fall short of commencing a judicial
proceeding. These include, in relevant part, “any act
. . . to exercise control over property of the [debtor],”
id. § 362(a)(3); see also id. § 902(1) (stating that
“property of the estate” when used in the municipal
bankruptcy context “means property of the debtor”),
“any act to . . . enforce any lien against property of
the [debtor],” id. § 362(a)(4), “any act to . . . enforce
against property of the debtor any lien to the extent
that such lien secures a lien that arose before the
commencement of the [bankruptcy] case,” id.
§ 362(a)(5), and “any act to collect, assess, or recover
a claim against the debtor that arose before the
commencement of the [bankruptcy] case,” id.
§ 362(a)(6).
The leading treatise on bankruptcy law recognizes
the breadth of actions encompassed by the collective
subsections of section 362(a), particularly in the
municipal bankruptcy context. See 3 Collier on
Bankruptcy ¶ 362.03 (Richard Levin & Henry J.
Sommer eds. 16th ed. 2018) [hereinafter Collier]
(“[I]nnocent conduct such as the cashing of checks
received from account debtors of accounts assigned
as security may be a technical violation [of section

69a
362(a)(6)].”); id. (“[T]he stay applies to secured
creditors in possession of collateral and to collateral
in possession of a custodian.”); see also 6 Collier,
supra, ¶ 901.04 (“The applicability of section 362 to
municipal debt adjustment cases is a continuation of
prior law. However, the protection afforded by
section 362 is substantially broader for the
debtor . . . .”). The case law also acknowledges the
breadth of creditor conduct stayed by section 362(a).
See, e.g., Thompson v. Gen. Motors Corp., 566 F.3d
699, 703 (7th Cir. 2009) (holding that a secured
creditor’s passive retention of collateral after the
filing of a bankruptcy petition violates section
362(a)(3)); Lex Claims, LLC v. Fin. Oversight &
Mgmt. Bd., 853 F.3d 548, 551–52 (1st Cir. 2017)
(citing Thompson with approval); Metromedia Fiber
Network Servs. v. Lexent, Inc. (In re Metromedia
Fiber Network, Inc.), 290 B.R. 487, 493 (Bankr.
S.D.N.Y. 2003) (observing that a secured creditor’s
failure to remit collateral to the debtor constitutes an
exercise of control over the debtor’s property); In re
Reed, 102 B.R. 243, 245 (Bankr. E.D. Okla. 1989)
(noting that a secured creditor’s sale of collateral in
its possession violates the automatic stay provision).1

1

Citing no contrary authority, the dissent says that the
“application of pledged revenues that a bondholder already
holds is not and never was clearly barred by the automatic
stay.” Given the foregoing case law and the very broad
language of the stay, it is hard to see much lack of clarity here.
But even if we were to assume that the law was then unclear as
to the reach of the automatic stay, the panel’s reading of section
922(d) would still function to clarify the law in a manner
contrary to the existing case law, which would preclude one
from declaring the provision superfluous.

70a
More importantly, the drafters of what became
section 922(d) expressed concern about the broad
reach of the automatic stay as applied to what the
municipal bankruptcy code labels “special revenues.”
See 11 U.S.C. § 902(2) (defining “special revenues”).
Under many municipal bond arrangements, like
those at issue in this case, the debtor turns over
funds to a fiscal agent, or trustee, who then turns
over the funds to the creditor, who in turn applies
the funds to outstanding debt. But the breadth of
the automatic stay poses a problem for this general
scheme. As the Senate Report accompanying the
1988 amendments to the municipal bankruptcy code
observes, “[t]he automatic stay of Bankruptcy Code
Section 362 is extremely broad, preventing any postpetition collection activities against the debtor,
including application of the debtor’s funds held by a
secured lender to secure indebtedness.” S. Rep. No.
100-506, at 11 (1988) (emphasis added). New section
922(d), enacted in the wake of that Senate Report,
addressed this concern directly.
It states:
“Notwithstanding [the automatic stay], a petition
filed under this chapter does not operate as a stay of
application of pledged special revenues in a manner
consistent with section [928] of this title to payment
of indebtedness secured by such revenues.” 11
U.S.C. § 922(d).
There is some ambiguity in the text of section
922(d). The passive syntax fails to indicate who (e.g.,
creditor, debtor, or fiscal agent) it is that the
provision permits to apply pledged special revenues
to the debt. And, I suppose, one might also wonder
what exactly “application” means.

71a
To answer those questions, one might most easily
look at that part of the Senate Report that
specifically addresses section 922, quoted above.
That portion of the Report expressly and
unambiguously refers to the application of pledged
special revenues already in the hands of the secured
creditor. And, if one views the fiscal agent or trustee
as an agent of the creditor in transmitting funds
when due, one might find in section 922(d)
permission for such a transfer by the fiscal agent as
well. This latter view finds support in another
portion of the Senate Report, which explicitly
clarifies that section 922(d) makes the automatic
stay inapplicable to the bond trustee’s application of
funds to the payment of outstanding debt. See S.
Rep. No. 100-506, at 13 (“In this context, ‘pledged
revenues’ includes funds in the possession of the
bond trustee . . . .”).
This reading would not
somehow render section 922(d) superfluous or of no
effect. Rather, it would clearly permit exactly what
the Senate Report said Congress was concerned
about in referring to the “application of the debtor’s
funds held by a secured lender to secure
indebtedness.” Id. at 11.
The foregoing notwithstanding, the bondholders
and the dissent point to this ambiguity in section
922(d) as license to hunt the legislative record for
bigger game: a conclusion that section 922(d) was
intended to allow creditors to commence, without
prior permission from the Title III court, a judicial
proceeding to secure a court order compelling the
debtor to continue making payments in accordance
with the bondholder resolutions after the filing of a

72a
Title III petition. I see two flaws in this hunt
through the legislative record.
First, its aim exceeds the license afforded by the
relevant ambiguity in section 922(d).
If a
hypothetical statutory provision were deemed to be
ambiguous because it refers to “motor vehicles
operated on public roads,” we might look to the
pertinent legislative history to see if “electric bikes”
were in mind when Congress drafted that provision.
But we would not seize upon language in the
legislative history to hold that “motor vehicles”
includes “kayaks.” See 14 Penn Plaza LLC v. Pyett,
556 U.S. 247, 259 n.6 (2009) (“[R]eading the
legislative history in the manner suggested by
respondents would create a direct conflict with the
statutory text . . . . In such a contest, the text must
prevail.”); Exxon Mobil Corp. v. Allapattah Servs.,
Inc., 545 U.S. 546, 568 (2005) (“Extrinsic materials
have a role in statutory interpretation only to the
extent they shed a reliable light on the enacting
Legislature’s understanding of otherwise ambiguous
terms.”). Similarly, while section 922(d) may be
ambiguous as to who it allows to apply funds, it is
clear that it only grants permission to act; i.e., it
allows some actor to apply funds “notwithstanding”
the automatic stay. 11 U.S.C. § 922(d). Nothing in
the language remotely suggests that it compels
anyone to make such an application. So, if, as the
dissent maintains, this case is really about “whether
a debtor . . . must continue to pay pledged special
revenues,” nothing in the permission granted by

73a
section 922(d) could possibly provide an answer that
helps the bondholders.2
Second, whatever “application” may mean, it
cannot reasonably be read as “commencing a judicial
proceeding” to compel payment. The dissent points
to two contemporaneous dictionary definitions of the
term “application” to demonstrate the term’s
ambiguity.
But even the dissent’s proffered
definition of “application” -- “[a]ppropriation of a
payment to some particular debt,” Application,
Black’s Law Dictionary (6th ed. 1990) -- could not
reasonably encompass the instigation of an
enforcement action against a debtor.
As subsection (a)(1) of the automatic stay provision
demonstrates, Congress knew how to refer to the
filing of a lawsuit against a debtor, and it did so in
straightforward terms in that instance.
See
11 U.S.C. § 362(a)(1) (staying “the commencement or
continuation . . . of a judicial, administrative, or
other action or proceeding against the debtor that
was or could have been commenced before the
[bankruptcy] case”).
Had Congress wanted to
exempt from the stay a creditor’s judicial action to
enforce the terms of a bondholder agreement, it
would have been exceedingly easy to do so by
invoking the language used in subsection (a)(1). See
Lozano v. Montoya Alvarez, 572 U.S. 1, 16 (2014)
(observing that when the drafters of legislation did
2

For this reason, I read the statement in Assured Guaranty
that section 922(d) is “unambiguous,” 919 F.3d at 132, as
correctly saying that the provision contains no relevant
ambiguity that would invite the reading proffered by the
bondholders.

74a
not use “obvious alternative” language, “the natural
implication is that they did not intend” that
alternative). But Congress did not do so. Further, if
one looks at all seven subsections of section 362(a)
and asks which one covers the “application” of funds
to a debt, one would never pick subsection (1). It
reasonably follows that 922(d) leaves that subsection
undisturbed.
Nor does section 922(d)’s reference to section 928
require a contrary result. Section 922(d) commands
that “application of pledged special revenues” be
done in a manner “consistent” with section 928 -which in turn provides that liens on special revenues
“shall be subject to the necessary operating
expenses” of the project or system. See 11 U.S.C.
§§ 922(d), 928(b). The dissent contends that this
cross-reference to 928(b) means that “application”
must refer to something more than funds already in
the hands of a creditor. Not so. In a non-municipal
bankruptcy proceeding, a bankrupt debtor (or its
trustee) can move the bankruptcy court to compel a
third party in possession of estate property to turn
over that property to the debtor. See 11 U.S.C.
§ 542.
Similarly, in the municipal bankruptcy
context, the Senate Report makes evident that the
bankruptcy court “retain[s] the power to enjoin
application of proceeds . . . upon a specific showing of
need, for example, where a secured creditor was
about to apply proceeds of a gross revenue pledge in
a manner inconsistent with policies of the proposed
new section.” S. Rep. No. 100-506, at 11; see also 6
Collier, supra, ¶ 922.05 n.22 (“[T]he bankruptcy
court has ample authority under its general
equitable powers to accomplish what the statute

75a
appears to contemplate, namely, use of pledged
special revenues when necessary for the continued
operation of the project or system from which the
revenues are derived.”). Thus, in ordinary course,
section 922(d) enables a creditor to apply pledged
special revenues in its possession to outstanding debt
unless the Title III or bankruptcy court enjoins the
creditor from doing so upon a showing by the debtor
of a need to pay necessary operating expenses.
II.
The creditors and the dissent also suggest that
section 928(a) of the municipal bankruptcy code
might be read to accomplish what section 922(d)
clearly does not.
But section 928(a) bears no
relevant ambiguity. It simply means what it says:
The provision orders that “special revenues acquired
by the debtor after the commencement of the case
shall remain subject to any lien resulting from any
security agreement entered into by the debtor before
the commencement of the case.” 11 U.S.C. § 928(a).
In other words, post-petition pledged special
revenues are still subject to the pre-petition lien
created by the bondholder agreements despite the
filing of a bankruptcy petition. Contrary to the
dissent’s view, section 928(a) suggests nothing about
the enforcement of a creditor’s lien on pledged special
revenues. It merely preserves a secured creditor’s
right to those post-petition funds throughout the
bankruptcy proceeding, and the creditor can then
assert its right to those funds during the plan-ofadjustment confirmation phase, see generally 11
U.S.C. § 943(a) (granting standing to object to a plan
of adjustment to “special tax payer[s]”); id. § 902(3)
(defining “special tax payer”); 6 Collier, supra,

76a
¶ 943.02 (explaining that “creditors whose claims are
affected by the plan of adjustment” have standing to
object), or earlier by requesting stay relief “for
cause,” such as “the lack of adequate protection” of
that collateral, 11 U.S.C. § 362(d)(1). Nor does
subsection 928(b) -- which, again, provides that “any
such lien on special revenues . . . derived from a
project or system shall be subject to the necessary
operating expenses of such project or system,” id.
§ 928(b) -- compel a different reading.
That
subsection merely limits the pool of post-petition
funds to which a creditor has an interest; in practical
terms, this means a creditor cannot object -- through
a request for stay relief or at the plan-confirmation
phase -- to the debtor’s use of post-petition pledged
special revenues for “necessary operating expenses.”
The Senate Report accompanying the 1988
amendments makes this explicit. As that Report
explains, “[new] Section [928], along with the
definition of special revenues in Section 902(3),
protects the lien on revenues. . . . It is intended to
negate Section 552(a) in the municipal context and to
go no further. In other words, it is not intended to
create new rights . . . .” S. Rep. No. 100-506, at 12
(emphasis added). Section 552(a) of the bankruptcy
code, incorporated from the non-municipal context,
provides that “property acquired . . . by the debtor
after the commencement of [bankruptcy] is not
subject to any lien resulting from any security
agreement entered into by the debtor before the
commencement of the case.” 11 U.S.C. § 552(a). As
the Senate Report explains, this provision created a
slew of potential problems in the municipal context.
Among those problems included the termination of

77a
creditors’ security interests in future special
revenues. This, in turn, made it possible that (1)
revenue bonds would be converted into general
obligation debt upon the filing of bankruptcy; (2)
future streams of special revenues would be made
accessible to general creditors; (3) municipal debt
limits would be exceeded; and (4) municipalities that
elected to continue paying bondholders would face
difficulty in obtaining plan confirmation. See S. Rep.
No. 100-506, at 5–9. As the Senate Report makes
evident, section 928(a) simply reverses the problems
created by section 552, but it does nothing more.
III.
The foregoing should be enough to end the debate.
The ambiguity of the statutory text is simply not
broad enough to allow one to read these sections as
allowing the bondholders to commence a collection
action without first obtaining leave of court. In
resisting this conclusion, the dissent and the
creditors also commit the further error of badly
misconstruing the context and legislative history
accompanying the 1988 amendments in support of
their reading of sections 922(d) and 928(a).
As evidence that these provisions should be read to
allow a creditor to bring a post-petition enforcement
action against a debtor to enforce the terms of a
bondholder agreement, the dissent points to one
portion of the Senate Report that reads: “[T]he
amendments insure that revenue bondholders
receive the benefit of their bargain with the
municipal issuer, namely, they will have unimpaired
rights to the project revenue pledged to them.” Id. at
12. When read in context, however, it is apparent

78a
that this statement was made in reference to the new
section 928(a) and its elimination of the problems
created by section 552 of the bankruptcy code,
discussed above.
See id.
As I have already
explained, section 928(a) does ensure that creditors
receive the benefit of their bargain by securing their
liens on future streams of pledged special revenues
(and their right to protect their property interests in
those revenues at the appropriate time and through
the appropriate channels) despite the debtor’s
bankruptcy filing. Of course, it is true that a debtor’s
decision to discontinue making payments and to
divert its revenues elsewhere might impair the
security created by such liens. The risk that a debtor
will misuse collateral exists in every bankruptcy
case, municipal or otherwise. But that possibility
gives us no license to rewrite section 922(d) to
authorize the commencement of a judicial proceeding
against the debtor without leave of the Title III or
bankruptcy court. Rather, in such an event, the
statute and the case law direct the creditor to seek
and obtain relief from the stay to protect its
interests. See 11 U.S.C. § 362(d); infra Part IV.
The dissent also points to the Senate Report’s
assertion that the “[r]easonable assurance of timely
payment is essential to the orderly marketing of
municipal bonds and notes and continued municipal
financing.” S. Rep. No. 100-506, at 21. Unlike the
previous quote, this excerpt does refer to the new
section 922(d). But in reading this passage to
suggest that section 922(d) mandates the continued
payment of pledged special revenues or to allow an
enforcement action to achieve the same end, the
dissent ignores the Senate’s use of the qualifier

79a
“reasonable” before “assurance.” More importantly,
it ignores the larger context in which Congress
passed the 1988 amendments. Both the Senate and
House Reports note examples of municipalities
electing to continue making payments to bondholders
after filing for bankruptcy -- despite the practical
difficulties created by section 552 of the bankruptcy
code discussed above -- to ensure their
creditworthiness. See id. at 6 (providing examples,
including the San Jose School District and Medley,
Florida); H.R. Rep. No. 100-1011, at 3 (1988)
(discussing the San Jose School District); see also S.
Rep. No. 100-506, at 25 (“[S]ection 552 may prevent
troubled municipalities from giving the kind of
assurances that are necessary for continued
financing.”).
Along with section 928(a), section
922(d) facilitates voluntary payments from a
municipal debtor -- and therefore a municipality’s
ability to give “reasonable assurance of timely
payment” -- to a creditor by allowing a creditor in
receipt of pledged special revenues to apply those
revenues to outstanding debt.
The Reports’ references to “payments,” S. Rep. No.
100-506, at 13; H.R. Rep. No. 100-1011, at 7, and the
Senate Report’s subsequent statement that “[w]here
a pledge of revenues survives under Section [928], it
would be needlessly disruptive to financial markets
for the effectuation of the pledge to be frustrated by
an automatic stay,” S. Rep. No. 100-506, at 21, must
be understood in a similar light. And the dissent
ignores the immediately succeeding sentence from
the Senate Report, which states: “Further, the use of
an automatic stay may be contrary to Section 904
and interfere with the government, affairs and the

80a
municipality’s use or enjoyment of income producing
property.” Id. at 21. The reference to section 904 of
the municipal bankruptcy code would make no sense
under the preferred interpretation of section 922
tendered by the bondholders and the dissent.
IV.
I add three brief final thoughts. First, I note that
the dissent’s arguments regarding section 305 of
PROMESA are adequately addressed in our recent
opinion in Ambac Assurance Corp., 927 F.3d at 602–
05. I do not rehash those arguments here.
Second, stay relief under section 362(d) of the
bankruptcy code is not the paper tiger that the
dissent makes it out to be. That section affords the
bankruptcy or Title III court no discretion to decline
a request for stay relief upon a showing of a “lack of
adequate protection of an interest in property.” See
11 U.S.C. § 362(d)(1) (stating that a bankruptcy
court “shall grant relief from the stay” for “lack of
adequate protection of an interest in property”
(emphasis added)); see generally Fin. Oversight &
Mgmt. Bd. for P.R. v. Ad Hoc Group of PREPA
Bondholders (In re Fin. Oversight & Mgmt. Bd. for
P.R.), 899 F.3d 13, 20 (1st Cir. 2018) (“[S]ection
362(d)(1) guards against the possibility that the
automatic stay could deprive a creditor of its
property interest by precluding the creditor from
exercising any rights it possesses to protect that
interest from destruction.”).
Finally, I note that the application of the automatic
stay provision to the bondholders’ claims against the
Commonwealth
raises
no
new
issues
of

81a
constitutional dimension that would warrant a
different reading of sections 922 and 928. Courts,
including the U.S. Supreme Court, have time and
again affirmed the constitutionality of section 362 of
the bankruptcy code against Fifth Amendment
Takings Clause claims. See, e.g., Wright v. Union
Cent. Life Ins. Co., 311 U.S. 273, 278 (1940)
(“Safeguards were provided to protect the rights of
secured creditors, throughout the proceedings, to the
extent of the value of the property. There is no
constitutional claim of the creditor to more than
that.” (citations omitted)); United Sav. Ass’ns of Tex.
v. Timbers of Inwood Forest Assocs., Ltd. (In re
Timbers of Inwood Forest Assocs., Ltd.), 793 F.2d
1380, 1390 (5th Cir. 1986) (“In general, the Fifth
Amendment requires only that the value of the
secured position of a creditor be maintained during
the stay.”); Lend Lease v. Briggs Transp. Co. (In re
Briggs Transp. Co.), 780 F.2d 1339, 1342 (8th Cir.
1985) (“The bankruptcy code’s automatic stay . . .
causes only a temporary delay of a creditor’s right to
enforce its lien on the collateral. . . . [The] suspension
of the right to enforce a lien is within Congress’s
constitutional
bankruptcy
powers.”
(citations
omitted)).
And as for the dissent’s invocation of the Tenth
Amendment, the Supreme Court -- more than eighty
years ago and before section 922(d) even existed -upheld the municipal bankruptcy code against such
an attack. See United States v. Bekins, 304 U.S. 27,
51–52 (1938) (“The statute is carefully drawn so as
not to impinge upon the sovereignty of the State.
The State retains control of its fiscal affairs.”).

82a
V.
For the above-stated reasons, I support the denial
of the creditors’ petition for rehearing en banc.
-- Dissenting Opinion Follows --

83a
LYNCH, Circuit Judge, dissenting from the
denial of rehearing en banc. With the greatest
respect for my colleagues, I dissent. I have grave
doubts about the panel’s holding and the analysis of
both the panel and the concurrence as to the denial
of en banc, and I believe that further review is
warranted, if not by this court, then by the Supreme
Court. At its core, this case is about whether, under
municipal bankruptcy law, the government debtor
must continue to pay pledged special revenues to
special revenue bondholders during a bankruptcy
proceeding (or, put another way, whether a debtor
can elect not to pay, and order a fiscal agent not to
pay, special revenue bondholders despite the
indenture).
This issue is of extraordinary
importance: it goes well beyond the Title III
proceedings in the Commonwealth as to both
potential municipal and state defaults, affects special
revenue bonds nationwide, and has Constitutional
implications.
The petitioners are insurers (“the Insurers”) of
Puerto Rico Highway and Transportation Authority
(“PRHTA”) special revenue bonds secured by liens on
pledged special revenues.
They allege the
Commonwealth has diverted these special revenues
to uses not authorized by the terms of the bonds.
Specifically, the Commonwealth stopped the making
of payments from the reserve accounts associated
with the bonds, taking the position that automatic
stay provisions incorporated from the Bankruptcy
Code into the Puerto Rico Oversight, Management,
and Economic Stability Act (“PROMESA”) barred
such
special
revenue
payments.
The
Commonwealth, by legislation, also ordered the fiscal

84a
agent for the special revenue bonds, the Bank of New
York Mellon, “to halt payments to [PR]HTA
bondholders.” 3 Ambac Assurance Corp. v. Puerto
Rico (In re Fin. Oversight & Mgmt. Bd. for P.R.), 927
F.3d 597, 601 (1st Cir. 2019). The petitioners sought
relief, alleging that: under several provisions of the
Bankruptcy Code, see 11 U.S.C. §§ 922(d), 928, and
U.S. Constitutional requirements, the filing of the
Title III petition does not operate as a stay against
the application of pledged special revenues to these
special revenue bondholders; such payments are
required during the pendency of the Title III
proceeding; and the Commonwealth’s actions
effectively have nullified their ability to collect the
pledged revenues. It is estimated that the sums at
issue are about $2.6 billion of the $4.5 billion in
outstanding PRHTA bonds.
The panel opinion, from which further review is
sought, holds that under Sections 362, 922(d), and
928 of the Bankruptcy Code, mandatory payments to
PRHTA special revenue bondholders from the
reserve accounts, and actions by those bondholders
or insurers to enforce their liens on such revenues,
are automatically stayed. Assured Guaranty Corp. v.
Fin. Oversight & Mgmt. Bd. for P.R. (In re Fin.
Oversight & Mgmt. Bd. for P.R.), 919 F.3d 121, 13233 (1st Cir. 2019). As a result, during the Title III
3

The recent panel opinion in Ambac Assurance Corp. v.
Puerto Rico (In re Financial Oversight & Management Board
for P.R.), 927 F.3d 597 (1st Cir. 2019), builds off of Assured
Guaranty Corp. v. Financial Oversight & Management Board
for P.R. (In re Financial Oversight & Management Board for
P.R.), 919 F.3d 121 (1st Cir. 2019), in part, and I disagree with
aspects of it as well.

85a
proceeding, these bondholders cannot receive
payment of special revenues promised to them at
issuance unless the Commonwealth voluntarily
makes such payment.4 Id. One other option, which
is not discussed by the opinion, is for the special
revenue bondholders (or the subrogated insurers) to
petition the district court to lift the stay as to their
interests; in my view, it is not likely that Congress
intended to impose such a burden on those
bondholders, preferring instead to make the
automatic stay inapplicable to start with.
I disagree with the panel opinion that the statutory
exceptions to the stay are limited to giving the debtor
the voluntary option of payment and disagree that
the text is unambiguous. Any interpretation of the
text of Section 922(d) and Section 928 of the
Bankruptcy Code5 requires resort to both context and
4

I do not address the issue of ownership of the reserve
accounts, because, as the panel opinion correctly states, “the
Insurers have failed to develop on appeal any argument on the
PRHTA bondholders’ property interest in the Reserve Account
funds.” Assured Guaranty, 919 F.3d at 127 n.6. I also do not
address the Insurers’ argument that they should prevail on the
text of the stay exceptions alone because I view the text as
ambiguous.
5

Section 922 states, in relevant part:

(a) A petition filed under this chapter operates as a stay,
in addition to the stay provided by section 362 of this
title, applicable to all entities, of -(1) the commencement or continuation, including the
issuance or employment of process, of a judicial,
administrative, or other action or proceeding against
an officer or inhabitant of the debtor that seeks to
enforce a claim against the debtor; and

86a
legislative history. That required analysis supports
the Insurers’ position: because payment of the
special revenues pursuant to the relevant bond
resolution(s) is mandatory during the bankruptcy
proceeding (after deducting “necessary operating
expenses” per Section 928(b)), bondholders can bring
(2) the enforcement of a lien on or arising out of taxes
or assessments owed to the debtor.
...
(d) Notwithstanding section 362 of this title and
subsection (a) of this section, a petition filed under this
chapter does not operate as a stay of application of
pledged special revenues in a manner consistent with
section 92[8] of this title to payment of indebtedness
secured by such revenues.
11 U.S.C. § 922. Section 922 refers to “section 927” rather than
928, but the panel opinion rightly notes that this appears a
scrivener’s error; this has been widely accepted, including by
the parties in this case. Assured Guaranty, 919 F.3d at 130
n.10.

Section 928 provides:
(a) Notwithstanding section 552(a) of this title and
subject to subsection (b) of this section, special revenues
acquired by the debtor after the commencement of the
case shall remain subject to any lien resulting from any
security agreement entered into by the debtor before the
commencement of the case.
(b) Any such lien on special revenues, other than
municipal betterment assessments, derived from a
project or system shall be subject to the necessary
operating expenses of such project or system, as the case
may be.
11 U.S.C. § 928.

87a
an action to enforce their liens if necessary without
first having to seek relief from the automatic stay.
The panel opinion, which stints on the analysis
required by rules of construction, also conflicts with
the persuasive view in In re Jefferson County, 474
B.R. 228 (Bankr. N.D. Ala. 2012), that “[t]he
structure and intent of what Congress enacted by its
1988 amendments to chapter 9 [of the Bankruptcy
Code] was to provide a mechanism whereby the
pledged special revenues would continue to be paid
uninterrupted,” id. at 274.
My understanding of the statutes essentially
preserves the status quo before the filing, and the
benefit of the bargain between the issuer and
bondholder, as to these special revenues; provides
assurance for the massive and important municipal
bond market; and supports the operation of local
governments. Nothing in substantive municipal
bankruptcy law excuses the debtor or any of its
intermediaries from continued payment of special
revenues, and the automatic stay does not apply to
these special revenues due to the exceptions created
by Sections 922 and 928.
I.
The procedural history and basic facts of this case
are ably described in the panel opinion. See Assured
Guaranty, 919 F.3d at 124-27. Before explaining
why I disagree with the panel’s analysis, however,
some background on the statutory arrangement is
necessary.
Title III of PROMESA incorporates by reference
numerous provisions from the Bankruptcy Code. See

88a
48 U.S.C. § 2161. These include the automatic stay
provisions at 11 U.S.C. §§ 362(a)6 and 922 (and the
express exceptions in those provisions), and the

6

The automatic stay provision at Section 362 states, in
relevant part:

(a) Except as provided in subsection (b) of this section, a
petition filed . . . operates as a stay, applicable to all
entities, of -(1) the commencement or continuation, including the
issuance or employment of process, of a judicial,
administrative, or other action or proceeding against
the debtor that was or could have been commenced
before the commencement of the case under this title,
or to recover a claim against the debtor that arose
before the commencement of the case under this title;
(2) the enforcement, against the debtor or against
property of the estate, of a judgment obtained before
the commencement of the case under this title;
(3) any act to obtain possession of property of the
estate or of property from the estate or to exercise
control over property of the estate;
(4) any act to create, perfect, or enforce any lien
against property of the estate;
(5) any act to create, perfect, or enforce against
property of the debtor any lien to the extent that such
lien secures a claim that arose before the
commencement of the case under this title;
(6) any act to collect, assess, or recover a claim
against
the
debtor
that
arose
before
the
commencement of the case under this title . . . .
11 U.S.C § 362(a).

89a
provision regarding the “[p]ost petition effect of
security interest” at 11 U.S.C. § 928.
Importantly, Section 922(d) and Section 928 were
added to the Bankruptcy Code as part of the 1988
amendments to Chapter 9 of the Bankruptcy Code,
to solve certain problems created by prior law in the
area of municipal bankruptcy. See Pub. L. No. 100597, 102 Stat. 3028, 3029 (codified at scattered
sections of 11 U.S.C.). Here, I identify certain
problems Congress was trying to solve, in the
municipal bond market and in municipal
bankruptcy, by enacting the 1988 amendments.
Before the 1988 amendments, concerns had been
brought to Congress about the Bankruptcy Code’s
application to municipal bankruptcy, and the
problems that prior amendments had caused.
Chapter 9, which addresses municipal bankruptcy,
had been substantially amended in 1976. See Act to
Amend Chapter IX of the Bankruptcy Act, Pub. L.
No. 94-260, 90 Stat. 315 (1976). It was amended
again in 1978. See The Bankruptcy Reform Act of
1978, Pub. L. No. 95– 598, 92 Stat. 2549. The latter
revision problematically incorporated by reference a
number of concepts from the law of corporate
bankruptcy into municipal bankruptcy law. 7 Id.
§ 901(a); 92 Stat. at 2621.
In making the revisions ten years later, Congress
stated, “[b]ecause the worlds of commercial finance
and municipal finance are so diverse, the simple
7

A more minor revision to municipal bankruptcy law was
made by the Bankruptcy Amendments and Federal Judgeship
Act of 1984, Pub. L. No. 98-353, 98 Stat. 333.

90a
incorporation by reference of the 1978 commercial
finance concepts into the municipal bankruptcy
arena simply did not work.” See S. Rep. No. 100-506,
at 3 (1988).
The House Report to the 1988
amendments pointed out that a municipality is
different than other debtors in bankruptcy, because
“a municipality cannot simply go out of business”
and “must continue to provide its residents with
essential services.” H.R. Rep. No. 100-1011, at 2
(1988). And so Chapter 9 “is designed just for
municipalities, to keep them in existence.”
Id.
Accordingly, both the Senate and House Reports for
the 1988 amendments stated a need to fix
“inconsistencies between bankruptcy law and
principles of municipal finance.” Id. at 3; accord S.
Rep. No. 100-506, at 1.
Congress had been urged to make these
amendments by a range of officials and groups
including the Vice Mayor of San Jose, California (on
behalf of the National League of Cities), the National
Bankruptcy
Conference,
and
the
National
Association of Bond Lawyers. H.R. Rep. No. 1001011, at 1. In response, Congress then articulated
several specific concerns stemming from the
commercial concepts that had been incorporated into
municipal bankruptcy law. One of the concerns was
that, without the amendments, Section 552(b) of the
Bankruptcy Code might “effectively destroy the
distinction between general obligation debt and
limited revenue obligation debt,” in part by allowing
“general creditors of the municipality to seek
payment from the pledged revenues.” S. Rep. No.
100-506, at 5.

91a
Revenue bonds are bonds “issued to finance
projects or programs . . . [such as] toll roads, water
systems, sports and convention centers, health care
facilities, sewer and waste water treatment facilities,
power generating facilities, waste disposal facilities,
or low and moderate income housing programs,” and
are paid through pledged revenue from the project or
system. S. Rep. No. 100-506, at 4. By contrast,
general obligation bonds are those “for which the
general taxing power of the issuer is pledged to repay
the bonds.” Id. at 4-5. There are clear, welldelineated contrasts between these types of bonds.
For revenue bonds, “bondholders cannot look to any
other assets of the municipality for repayment,” H.R.
Rep. No. 100-1011, at 4, meaning that “the general
taxpayers are usually not committed to repaying the
[revenue] bonds or funding operational deficits
through general tax revenues,” S. Rep. No. 100-506,
at 5. Accordingly, the rates on the different types of
bonds can be different for the same municipality,
because revenue bonds generally depend on the
prospects of the project or system itself rather than
the general creditworthiness of the municipality. So,
the conversion of one type of bond into the other
creates an obvious problem.
The Senate Report also stated the “real concern
that revenues dedicated to the repayment of
municipal and local obligations will be diverted to
other purposes once a municipality or local
government enter[s] bankruptcy.” S. Rep. No. 100506, at 5. That is exactly what happened here. The
Report expressed concern about the possible
unconstitutionality of invalidating such a lien under

92a
Section 552(a).8 In doing so, it cited two Supreme
Court cases, Ashton v. Cameron County Water
Improvement District No. 1, 298 U.S. 513 (1936), and
United States v. Bekins, 304 U.S. 27 (1938). S. Rep.
No. 100-506, at 6.
Congress articulated yet another concern about the
operation of the automatic stay provision at Section
362 as to special revenue bonds. The Senate Report
explained:
The automatic stay of Bankruptcy Code
Section 362 is extremely broad, preventing any
post-petition collection activities against the
debtor, including application of the debtor’s
funds held by a secured lender to secure
indebtedness.
This provision is overly broad in Chapter 9,
requiring the delay and expense arising from a
request for relief from the automatic stay to
accomplish what many state [statutes]
mandate: the application of pledged revenues
8

Section 552(a) provides that “[e]xcept as provided in
subsection (b) of this section, property acquired by the estate or
by the debtor after the commencement of the case is not subject
to any lien resulting from any security agreement entered into
by the debtor before the commencement of the case.” 11 U.S.C.
§ 552(a).
The Senate Report stated that New Section 928 was
“intended to negate Section 552(a) in the municipal context,” by
“remov[ing]” the limitation of rights formerly allowed by
Section 552(a) in the municipal revenue bond context (i.e., the
termination of a pre-petition lien on pledged special revenues,
contrary to some “state law and constitutional provisions”). S.
Rep. No. 100-506, at 12-13.

93a
after payment of operating expenses to the
payment of secured bonds. The automatic stay
should
specifically be inapplicable to
application of such revenues.
The Bankruptcy Court could retain the power
to enjoin application of proceeds, however,
upon a specific showing of need, for example,
where a secured creditor was about to apply
proceeds of a gross revenue pledge in a matter
inconsistent with policies of the proposed new
section.
Id. at 11 (emphasis and spacing added). Put simply,
the prior law, as to the automatic stay, caused a
problem in subjecting the special revenue payments
made by municipalities to the bondholders, to the
automatic stay. Congress wanted to solve that
problem with the 1988 amendments. As to the
solution, Congress expressly rejected forcing the
bondholder to make a “request for relief” (that is, a
lift-stay motion) from the automatic stay. Further, it
wanted to keep the burden on the debtor to justify
non-payment, and not on the special revenue
bondholder: the Report continued that the debtor
could seek to enjoin the “application of pledged
revenues . . . to the payment of secured bonds” upon
a “specific showing of need” based on a creditor’s
intent “to apply proceeds of a gross revenue pledge in
a matter inconsistent with policies of the proposed
new section.”9 Id. That is clearly not the situation

9

Taking the concurrence’s assertion (whether accurate or not)
that a lift-stay motion for cause is easily done, the same logic
would extend to a municipal debtor’s action to enjoin

94a
here; there is no assertion that the Insurers were
planning to apply special revenues in a way
inconsistent with the statute.
In two consistent reports, Congress explained the
problems it was trying to solve with the 1988
amendments, and I now turn to the text of the
relevant statutes.
II.
A.

The Statutory Text Requires Resort to Context
and Legislative History

The panel opinion holds that the language in each
of Sections 922(d) and 928(a) is unambiguous, and
that therefore the court did not need to inquire
further.
Assured Guaranty, 919 F.3d at 129
(“Because the language of the statute is
unambiguous . . . we find it unnecessary to turn to
the legislative history.”); id. at 132 (“[B]ecause we
find the statute’s language unambiguous, there is no
need to rely on legislative history.”). I disagree that
the analysis can be so truncated here.
I agree, of course, that “[i]n statutory
interpretation disputes, a court’s proper starting
point lies in a careful examination of the ordinary
meaning and structure of the law itself.” Food Mktg.
Inst. v. Argus Leader Media, 139 S. Ct. 2356, 2364
(2019). And so I begin there. In doing so, I remain
mindful that “[t]he plainness or ambiguity of
statutory language is determined by reference to the
language itself, the specific context in which that
application of proceeds based on a “specific showing of need.” S.
Rep. No. 100-506, at 11.

95a
language is used, and the broader context of the
statute as a whole.”10 Robinson v. Shell Oil Co., 519
U.S. 337, 341 (1997). Statutory context is important,
as always, because we have a “duty to construe
statutes, not isolated provisions,” and so I pay
careful attention to context in analyzing the
provisions at issue. Graham Cty. Soil & Water
Conservation Dist. v. U.S. ex rel. Wilson, 559 U.S.
280, 290 (2010) (quoting Gustafson v. Alloyd Co., 513
U.S. 561, 568 (1995)).
First, Section 922(d) provides a limited exception to
the automatic stay provisions for “application of
pledged
special
revenues . . . to
payment
of
indebtedness secured by such revenues.” 11 U.S.C.
§ 922(d). The panel concluded that this exception
unambiguously means that payment of special
revenues to bondholders is permissible during the
bankruptcy proceeding, but only when the debtor
voluntarily chooses to make such a payment. It then
held that the section authorizes bondholders who
have received but not yet applied those revenues to
the debt to go ahead and do so (as though that were
the problem to be solved). See Assured Guaranty,
919 F.3d at 130.

10

See also King v. Burwell, 135 S. Ct. 2480, 2489 (2015)
(“[O]ftentimes the meaning -- or ambiguity -- of certain words or
phrases may only become evident when placed in context.”). As
the Supreme Court has said, “clear evidence of congressional
intent may illuminate ambiguous text.” Milner v. Dep’t of
Navy, 562 U.S. 562, 572 (2011); accord Azar v. Allina Health
Servs., 139 S. Ct. 1804, 1814 (2019) (“[C]lear legislative history
can illuminate ambiguous text.” (internal quotation marks
omitted)).

96a
I disagree with the panel opinion about the likely
meaning of Section 922(d), and at the least would
find its text ambiguous.
The statute begins:
“Notwithstanding section 362 of this title and
subsection (a) of this section . . . .”
11 U.S.C.
§ 922(d). Section 362(a) refers in part to “any act to
create, perfect, or enforce any lien against property
of the estate,” id. § 362(a)(4) (emphasis added), and
Section 922(a) similarly refers in part to the
“enforcement of a lien,” id. § 922(a)(2). The Supreme
Court has explained that “in construing statutes, the
use of such a ‘notwithstanding’ clause clearly signals
the drafter’s intention that the provisions of the
‘notwithstanding’
section
override
conflicting
provisions of any other section.” Cisneros v. Alpine
Ridge Grp., 508 U.S. 10, 18 (1993). On the panel’s
narrow understanding, there is no conflict because
the stay provisions do not prohibit the debtor from
making voluntary payment. In my view, the use of
the word “notwithstanding” makes it unlikely that,
in Section 922(d), Congress intended only to allow
the debtor to voluntarily pay the pledged revenues at
the debtor’s whim. I point out that, in general, the
stay provisions do not refer to any voluntary actions
taken by the debtor, as opposed to actions directly
against the debtor.
Nor does the language support the panel’s reading
that the clause has to do with what the bondholder
can do when it has received such a payment but (in
essence) has not cashed it. So, my disagreement also
extends to the panel’s narrow interpretation of the

97a
word “application” in Section 922.11 The statute does
not use “application” as a term standing alone, but in
reference to the “payment of indebtedness secured by
such revenues.”
11 U.S.C. § 922(d) (emphasis
added). Even the section of Collier relied on by the
panel and the concurrence accepts that “it can be
argued that the word ‘application’ . . . means that the
municipality must pay over to the creditor special
revenues in the possession of the municipality.” 6
Collier on Bankruptcy ¶ 922.05 (16th ed. 2018). A
different bankruptcy treatise seemed to accept the
Jefferson County view that “[Section] 922(d) applies
not only to revenues in the hands of the trustee, but
also requires the debtor to continue to pay over postpetition revenues for application in accordance with
the indenture.” 5 Norton Bankruptcy Law and
Practice 3d § 90:13 (2019).
Beyond that, application of pledged revenues that a
bondholder already holds is not and never was
clearly barred by the automatic stay provisions, so
that does not justify the panel’s narrow reading of
“application.” See 11 U.S.C. § 904 (protecting “the
debtor’s use or enjoyment of any income-producing
property” from “interfere[nce]”). So, this statutory
language about application, when understood in
context, may well be understood as allowing
11

The plain meaning of the full phrase is not luminously clear
from the text alone; roughly contemporary dictionaries have
quite broad definitions of “application.” See, e.g., “Application,”
Black’s Deluxe Law Dictionary (6th ed. 1990) (defining
“application” as, in the “Payments” context, “[a]ppropriation of
a payment to some particular debt”); “Application,” Oxford
English Dictionary (2nd ed. 1989) (defining “application” in
numerous, and broad, ways).

98a
enforcement of these particular liens, in situations
like this where continued payment is not made
according to the terms of the issuance. To be clear, I
do not read the word “application” alone to mean to
“commence a judicial proceeding.” Rather, Section
922(d) as a whole can be read as allowing
enforcement (through a judicial proceeding if
necessary) by creating a prospective exception to the
stay for the required continued payment of special
revenues in accordance with the indenture.
“Application . . . to the payment of indebtedness” is a
mandatory process, on this understanding, and so
the debtor can sue to enforce it as necessary.12
Second, Section 928(a) can be reasonably read more
broadly than how the panel read it, that “consensual
prepetition liens on special revenues will remain in
place after the filing of the petition.” Assured
Guaranty, 919 F.3d at 128. The statute says that
“special revenues acquired by the debtor after the
commencement of the case shall remain subject” to
such liens, 11 U.S.C. § 928(a) (emphasis added); this
can plausibly be read as contemplating enforcement
of the liens when necessary to forestall the debtor
from diverting and subsequently misusing the
pledged revenues, just as is happening here (taking
the pleadings to be true). This interpretation would
provide more protection to the lienholders without
12

Deploying a motor vehicles/electric bikes/kayaks analogy,
the concurrence warns of “exceed[ing] the license afforded by
the relevant ambiguity” in the statute. I disagree that this is
an apt analogy at all, nor does it eliminate the need to consider
the legislative history and context. Nor am I “hunt[ing] the
legislative record for bigger game” in my consideration of
relevant extrinsic materials.

99a
requiring recourse to a lift-stay motion (which I
discuss further below).
Proximate statutory context supports this view.
Section 928(b) provides that such “lien[s] on special
revenues” “shall be subject to the necessary
operating expenses of such project or system.” Id.
§ 928(b). If continued payment of special revenues
were merely voluntary during the pendency of a
bankruptcy proceeding due to the automatic stay
provisions, this carveout would have little practical
effect; municipalities concerned about meeting the
operating expenses of a project or system could
simply choose not to pay pledged special revenues at
all during the pendency of bankruptcy proceedings,
with no concern for setting aside only the necessary
operating expenses.
B.

Legislative History of the 1988 Amendments
Supports the Insurers’ Position

Having shown there are different ways to read the
language from the text alone, I turn back to the
Senate and House Reports and, to a much lesser
degree, submissions to the Senate Subcommittee on
Courts and Administrative Practice regarding the
1988 amendments. For the latter category, I look in
particular at statements and testimony by James W.
Perkins, Lawrence P. King, and James E. Spiotto,
because this testimony is referred to in the Senate
Report. 13 S. Rep. No.100-506, at 2. Importantly,
13

Though “excerpts from committee hearings” can be “among
the least illuminating forms of legislative history,” Advocate
Health Care Network v. Stapleton, 137 S. Ct. 1652, 1661 (2017)
(quoting N.L.R.B. v. SW Gen., Inc., 137 S. Ct. 929, 943 (2017)),
formal submissions that correlate closely to the official

100a
those submissions comport with statements in the
reports, and with a reasonable reading of the terms
in the eventual statute.14 I first consider legislative
history as related to specific words in the statutes,
and then consider more closely the purposes of the
1988 amendments as expressed by Congress.15
The Congressional sources do not support the view
that the term “application” only refers to the
situation where a municipality wants to pay pledged
revenues voluntarily but has not yet paid them to an
indenture trustee. Nor do they support the views
that “pledged revenues” only refers to such revenues
that have already been received by an indenture
trustee but not yet applied, or to such revenues that

Congressional reports -- and are in fact cited by the Reports -can still provide some value in discerning congressional intent.
14

It is significant that one of the experts on whom Congress
relied has taken the position that the panel opinion is incorrect
(and previously took the position that the district court was
incorrect in this case). See James Spiotto, The First Circuit
Court of Appeals Ruling on ‘Assured’ Should be Reheard or
Reversed; Recent Ruling Sends a Harsh Message to Municipal
Bond Market, MuniNet Guide (Apr. 3, 2019),
https://muninetguide.com/the-first-circuit-court-of-appealsruling-on-assured-should-be-reheard-or-reversed-recent-rulingsends-a-harsh-message-to-municipal-bond-market (stating that
the panel opinion “was contrary to all prior case law . . . by
courts hearing Chapter 9 cases, the recognized commentaries
on special revenues and the legislative history for the 1988
Amendments to the Federal Bankruptcy Code”).
15

By considering the “reliable light” shed on parts of the
statutory scheme by the legislative history, Exxon Mobil Corp.
v. Allapattah Servs., Inc., 545 U.S. 546, 568 (2005), this section
gives proper respect to Congress.

101a
the creditor itself has in hand and wants to apply to
the debt.
Instead, the Senate Report states more broadly
that, by the amendments, the automatic stay “is
made inapplicable to the payment of principal and
interest on municipal bonds paid from pledged
revenues.” Id. at 13 (emphasis added). The House
Report is also explicit about payment:
To help achieve a primary goal of the bill, new
subsection (d) to section 922 states that the
automatic stay of Bankruptcy Code section
362 does not operate to stay paying pledged
revenues, consistent with new section 92[8] of
the Bankruptcy Code, to the revenue
bondholders holding liens on such revenues.
H.R. Rep. No. 100-1011, at 7 (emphasis added). The
word “voluntarily” cannot be read into this reference
to “paying.”16 “Consistent with [Section 928]” means,
then, that payment of the “special revenues acquired
16

The Statement of the National Bankruptcy Conference
explained this portion of the proposed amendments similarly to
the Senate’s conclusion: “Pledged revenues received after the
commencement of the bankruptcy case would be applied first to
the operating expenses of the system, project or function
producing the revenues . . . before application to the
indebtedness for which the revenues were pledged and only
then to other lawful purposes.” Bills Pertaining to Title 11 of
the United States Code, The Bankruptcy Code Hearing on S.
1626, S. 1358, S. 1863, and S. 2279 Before the Subcomm. on
Courts and Admin. Practice of the S. Comm. on the Judiciary,
100th Cong. 556 (1988). “Received” can only refer to receipt by
the debtor here (who runs the project or system at issue),
because the sentence allows for the application to the operating
expenses first. See id. at 534-565.

102a
by the debtor after the commencement of the case”
would happen after the municipality deducts the
“necessary operating expenses of [the] project or
system.” 11 U.S.C. § 928(b). Reading “application
. . . to payment of indebtedness” as only referring to a
situation where a creditor or indenture trustee
already has the funds cannot be squared with the
broader references to payment in the Reports.
Relatedly, as to the definition of “pledged
revenues,” the Senate Report states that pledged
revenues “[i]n this context” “includes funds in the
possession of the bond trustee as well as other
pledged revenues.” S. Rep. No. 100-506, at 13. The
appellee PROMESA Board argues that the Report
was unclear on this point, and so the statement does
not cut either way. But “other pledged revenues”
seems to mean what it says: all the rest of the
pledged revenues that are not, at that time, “in the
possession of the bond trustee.” Id. So again, the
legislative history does not support the view that yetuncollected pledged revenues (to be paid to
bondholders prospectively) are excised from the
meaning of “pledged revenues” in the amendments.
See 11 U.S.C. § 902(2) (defining “special revenues”).
Nor does it support the view that the amendments
only target already-paid installments held by the
bondholders (or, in the same vein, already-escrowed
payments to an indenture trustee). My views are
consistent with the definition of “pledged revenues”
in a municipal bond handbook. See The Handbook of
Municipal Bonds 1295 (Sylvan G. Feldstein & Frank
J. Fabozzi eds., 2012) (defining “pledged revenues” as
“[r]evenues legally pledged to the repayment of a
bond”).

103a
As to the legislative history demonstrating the
relevant goals of the 1988 amendments, in its
overview summarizing the “significant amendments”
to the law made by the 1988 amendments, the
Senate Report states that “the amendments insure
that revenue bondholders [will] receive the benefit of
their bargain with the municipal issuer, namely,
they will have unimpaired rights to the project
revenue pledged to them.” S. Rep. No. 100-506, at
12. This statement, in my view, is general and not in
reference only to one of the amended provisions, as
the concurrence argues.
Several experts who
provided statements or testimony at the Senate
subcommittee hearing made similar points to mine.
See Bills Pertaining to Title 11 of the United States
Code, The Bankruptcy Code Hearing on S. 1626, S.
1358, S. 1863, and S. 2279 Before the Subcomm. on
Courts and Admin. Practice of the S. Comm. on the
Judiciary, 100th Cong. 532 (1988) (statement of
James E. Spiotto) (“[T]he bill preserves the bargain
that was made by all the parties . . . .”); id. at 528
(statement of James W. Perkins) (“[T]he bill
preserves the bargain that was made.”).
Rights of revenue bondholders to special revenues
are not “unimpaired” if the payments are not made
but put off indefinitely, and are even more impaired
if there is no guarantee that any of the pledged
revenue will be paid, if at all, until the end of a
bankruptcy proceeding. And they are certainly not
“unimpaired” if, during the bankruptcy proceeding,
the debtor can divert and spend the pledged
revenues in ways unrelated to the necessary
operating expenses of the project or system or the
special revenue payment obligations. Further, as to

104a
the “bargain” struck between parties when revenue
bonds are issued and sold, surely it involves the
payment of the pledged revenues, not just giving the
issuing municipality the option to pay or not during
a bankruptcy proceeding (which may take years).
Next, the Senate Report stresses that “[r]easonable
assurance of timely payment is essential to the
orderly marketing of municipal bonds and notes and
continued municipal financing.” S. Rep. No. 100-506,
at 21. This statement favors the bondholders’ view.
If Congress simply intended the amendments to
prevent a (possibly unconstitutional) destruction of a
lien, the panel’s result would seem to subvert this
intent. The panel’s narrow understanding here also
does little to support the “essential” “reasonable
assurance” for creditors of “timely payment.” A
creditor, as the panel has it, would be left at the
mercy of whether the debtor will decide to make
voluntary payment (a highly unlikely scenario in
many situations, as exemplified by the present case).
Payment, in that event, cannot be said to be “timely”
when municipalities, by their choices, can force the
special revenue bondholders to wait for payment
until the end of the bankruptcy proceeding. And I do
not ignore the “reasonable” qualifier to “assurance,”
but cannot see that the mere allowance of voluntary
payment would provide any real assurance that,
when push comes to shove and a municipality files
for bankruptcy, creditors will receive “timely
payment” of pledged special revenues.17

17

The concurrence argues that I ignore the “larger context” of
the amendments here, and points to examples in the Senate
and House Reports about “municipalities electing to continue

105a
Finally, the Senate Report states that “[w]here a
pledge of revenues survives . . . it would be
needlessly disruptive to financial markets for the
effectuation of the pledge to be frustrated by an
automatic stay.”18 Id. (emphasis added). Creating
an exception to the stay that is limited only to a
choice by a municipality of whether to continue
payment would not prevent “disrupti[ons]” to the
financial markets, contrary to Congress’s clearlystated intent to avoid such disruptions. Id.
C.

PROMESA Section 305 Does Not Require A
Narrower Reading

I disagree with the panel opinion, and with a later
opinion building in part off of that opinion, that
Section 305 of PROMESA (which closely resembles
Section 904 of the Bankruptcy Code) requires that
making payments to bondholders after filing for bankruptcy.”
The Senate Report gives examples of a city and a school district
that “ignore[d] [Section 552] and continue[d] to pay the
bondholders as originally promised,” S. Rep. 100-506, at 6, and
the House Report similarly describes “continued post-petition”
payments made by the school district “in the same manner as if
no bankruptcy ha[d] been filed,” H.R. Rep. No. 100-1011, at 3.
But the provision those municipalities ignored was only one
that “terminated” the pledge. S. Rep. 100-506, at 12; see 11
U.S.C. § 552(a) (“[P]roperty acquired by the estate or by the
debtor after the commencement of the case is not subject to any
lien resulting from any security agreement entered into by the
debtor before the commencement of the case.”).
18

“[E]ffectuation of the pledge” most likely means continued
payment of the pledged revenues and enforcement of liens if
needed to obtain payment. The payment of revenues to
bondholders is what has been pledged between the parties
when the bonds were issued and sold, in a straightforward
sense, including by enforcement of the liens.

106a
Section 922(d) be interpreted narrowly. See Assured
Guaranty, 919 F.3d at 131; Ambac Insurance Corp.,
927 F.3d at 602-03. Here, I believe Section 928 is
relevant as well.
Section 305 of PROMESA states:
Subject to the limitations set forth in
subchapters I and II of this chapter,
notwithstanding any power of the court,
unless the Oversight Board consents or the
plan so provides, the court may not, by any
stay, order, or decree, in the case or otherwise,
interfere with—
(1) any of the political or governmental
powers of the debtor;
(2) any of the property or revenues of the
debtor; or
(3) the use or enjoyment by the debtor of
any income-producing property.
48 U.S.C. § 2165. This court has stated that Section
305 is intended to be “respectful and protective of the
status
of
the
Commonwealth
and
its
instrumentalities as governments, much like section
904 of the municipal bankruptcy code respects and
protects the autonomy of states and their political
subdivisions.” Fin. Oversight & Mgmt. Bd. for P.R.
v. Ad Hoc Grp. of PREPA Bondholders (In re Fin.
Oversight & Mgmt. Bd. for P.R.) (PREPA), 899 F.3d
13, 21 (1st Cir. 2018). But Section 305 does not bar,
for example, the Title III court from lifting the
automatic stay, id.; instead, it generally protects the
Commonwealth from the Title III court “imping[ing]

107a
on [the Commonwealth’s] autonomy” by “directly
interfering.” Id.; see Aurelius Capital Master, Ltd. v.
Puerto Rico (In re Fin. Oversight & Mgmt. Bd. for
P.R.), 919 F.3d 638, 648 (1st Cir. 2019).
First, I am not convinced that the prospective relief
from the automatic stay granted by Sections 922 and
928 really constitutes the “interference” with which
Section 305 is most concerned. As one commentator
significantly points out: “The argument that section
904 requires a narrow interpretation is incorrect. If
anything, it is the automatic stay which interferes
with the normal workings of the affairs of a
municipality. Section 922(d) makes the automatic
stay inapplicable to revenue bonds and thereby
limits the court’s sphere of interference over
municipal affairs.”19 David L. Dubrow, Chapter 9 of
the Bankruptcy Code: A Viable Option for
Municipalities in Fiscal Crisis?, 24 The Urb. Law.
539, 573 (1992). On my understanding of the
statutory scheme, the debtor and the bondholders
are left “with the same rights and obligations as
prior to the Chapter 9 filing,” id., limiting the Title
III court’s “interference” (if it can be called that) to
merely preserving the situation that the buyer and
seller agreed upon at the issuance of the special
revenue bonds, including through enforcement of the
liens if necessary. The narrow action by the Title III
court would simply prevent “a marked change in the
status quo ante undercutting creditor rights” by
19

Also, Congress, in the Senate Report, stated its concern
that the automatic stay itself might “interfere with the
government, affairs and the municipality’s use or enjoyment of
income producing property.” S. Rep. No. 100-506, at 21.

108a
allowing a debtor to make no special revenue
payments during the bankruptcy proceeding, a result
I believe is “unlikely to have been implemented by
Congress without some discussion and expression of
awareness.” PREPA, 899 F.3d at 20.
Again, such special revenue bonds are generally
based on a specific project or system and are not
usually supported by broader property of the
municipality (as general obligation bonds would be).
In this way, the advance exceptions from the
automatic stay are more like the bankruptcy or Title
III court “merely stand[ing] aside by lifting the
automatic stay, . . . allow[ing] the processes of state
or territorial law to operate in normal course as if
there were no bankruptcy,” id. at 21, rather than a
normal enforcement action by, for example, a general
obligation creditor attempting to jump the line
during the pendency of the bankruptcy proceeding.
Second, even if this action were viewed as
“interference,” some “interference” is plainly
necessary under Section 928, as the Board accepts
(“Section 928(b) ensures a municipal debtor may
elect to apply revenues to pay necessary operating
expenses subject to court determinations, in the
event of a dispute, over which expenses are
‘necessary.’” (emphasis added)). That is, where there
is a dispute over how much of the revenue is actually
“necessary” for the debtor to operate the project or
system, the court must determine the proper amount
-- and so must “interfere” in this limited way with
the debtor’s property, if the decided amount is lower
than the debtor otherwise wishes to keep for the
operating of the project or system. The Senate
Report is clear that the court must be involved in

109a
making the necessity determination: “Prepetition
operating expenses are included [in ‘necessary
operating expenses’] to the extent payment is
deemed necessary by the court for this purpose.” S.
Rep. No. 100-506, at 22 (emphasis added). Limited
“interference” to effectuate the goals of Congress in
Section 922(d) would be equally appropriate in this
narrow context. The specific stay exceptions, and
Congress’s intent in enacting them many years after
the initial enactment of Section 904,20 support the
view that the stay exceptions construed here override
Section 305 in specific and limited ways. See NitroLift Techs., L.L.C. v. Howard, 568 U.S. 17, 21 (2012)
(per curiam) (recognizing the “the ancient
interpretive principle that the specific governs the
general (generalia specialibus non derogant) [for] . . .
laws of equivalent dignity”).
That includes
enforcement if necessary, where a debtor refuses to
make the special revenue payments as promised by
the relevant bond resolution(s).
Third and finally, even were I to assume arguendo
that the Title III court cannot directly order the
payment of the pledged revenues based on Section
305’s prohibitions on that court’s authority (meaning
it cannot directly enforce the liens), I would still
agree with the Jefferson County view that “resort to
another court for the limited purpose of obtaining the
[pledged revenues after deduction of necessary
operating expenses] is potentially available should
the [debtor] not voluntarily remit the [pledged
20

Congress was, of course, aware of Section 904 when it made
the 1988 amendments; the Senate Report mentions that section
multiple times. S. Rep. No. 100-506, at 6, 9, 21.

110a
revenues],” Jefferson County, 474 B.R. at 272
(emphasis added), without first requiring a lift-stay
motion to the Title III court. After all, Section 305
does not restrict non-Title III courts. See Ambac
Insurance Corp., 927 F.3d at 605.
III.
There are three other arguments which support my
view that merit further consideration.
A.

Superfluity of Section 922(D)

In my view, the bondholders’ superfluity argument
regarding Section 922(d) has not been dealt with
fully either in the original panel opinion or in the
revision to the opinion.21 I am not convinced by the
attempt to shift the rationale for rejecting the
superfluity argument from an erroneous reliance on
a Seventh Circuit opinion to Collier. See Assured
21

Months after the opinion’s initial issuance, after the filing
of the en banc petition, and without further briefing, the
revision changed the cited support for the rejection of a
colorable legal argument, removed the only case citation in that
rejection, and changed the phrase “was unclear” to “ample
reason to believe.” Errata, Dkt. No. 115, Assured Guaranty,
919 F.3d 121 (Nos. 18-1165; 18-1166).
The Seventh Circuit case initially cited was In re Hellums,
772 F.2d 379 (7th Cir. 1985) (per curiam). Several years before
the 1988 amendments, this case noted that its holding
“preserve[d] the right of a debtor to voluntarily re-affirm
otherwise dischargeable obligations.” Id. at 382. I see this as
contrary to the panel opinion’s view that, before the 1988
amendments, there was reason to believe that voluntary
payment (and acceptance of that payment) was not allowed by
Chapter 9 during the pendency of the municipal bankruptcy
proceeding.

111a
Guaranty, 919 F.3d at 132 (“Before Congress adopted
the 1988 Amendments there was ample reason to
believe that Section 362(a) stayed a creditor from
accepting voluntary payments from a debtor or
stayed a creditor from applying debtor funds already
in the creditor’s possession (as security) to the debt.”
(citing 6 Collier on Bankruptcy ¶ 362.03)). The
general statement quoted from Collier 22 about
“cashing of checks” is neither authoritative nor
adequate. This section of Collier is not directed at,
and indeed never refers to, municipal bankruptcies
in particular.
At their core, the stay provisions address actions
taken against the debtor, not voluntary actions by
the debtor. Put simply, the stay provisions do not
generally create restrictions on what the debtor may
do voluntarily. See 11 U.S.C. § 362(a); id. § 922. The
panel’s understanding likely renders Section 922(d)
superfluous.
Even if one disagrees with my
conclusion on superfluity, this argument is serious
and I believe merits further consideration than that
afforded in the panel opinion.
B.

Constitutional Concerns and the Canon of
Avoidance

The bondholders are correct in their en banc
petition that the reasoning in the panel opinion
raises concerns under the Takings Clause as well as
22

The parenthetical from the panel opinion is: “[I]nnocent
conduct such as the cashing of checks received from account
debtors of accounts assigned as security may be a technical
violation [of Section 362(a)(6)].” Assured Guaranty, 919 F.3d at
132 (alterations in original) (quoting 6 Collier on Bankruptcy
¶ 362.03)).

112a
under the Tenth Amendment. The Supreme Court
has held that the “total destruction . . . of all
compensable value of . . . liens, which constitute
compensable property, has every possible element of
a Fifth Amendment ‘taking.’” United States v. Sec.
Indus. Bank, 459 U.S. 70, 77 (1982) (quoting
Armstrong v. United States, 364 U.S. 40, 48 (1960)).
But the panel opinion does not mention those
concerns or consider the canon of constitutional
avoidance.
As a practical matter, the panel opinion allows the
Commonwealth to divert and spend the pledged
revenues during the pendency of the bankruptcy
proceeding, unless the debtor suddenly changes its
approach and voluntarily makes payments or the
bondholders get the stay lifted for cause, an issue to
which I return below. The PRHTA bondholders, and
their insurers, may indeed “be left to stand by
helplessly as the debtor spen[ds] the creditor’s
collateral,” here the pledged revenues. PREPA, 899
F.3d at 20. The Supreme Court has cautioned us “to
avoid an interpretation of a federal statute that
engenders constitutional issues if a reasonable
alternative interpretation poses no constitutional
question,” Gomez v. United States, 490 U.S. 858, 864
(1989), and my dissent has offered such a reading.23
Next, the opinion’s holding is not limited to Puerto
Rico, in that the interpreted language from the
Bankruptcy Code in Sections 922 and 928 was
23

I appreciate that Ambac Insurance Corp., issued after
Assured Guaranty, does not foreclose a constitutional challenge
“in a separate action” because Section 305 does not restrict nonTitle III courts. 927 F.3d at 605.

113a
incorporated into PROMESA without alteration. As
a result, there may well also be a constitutional
avoidance issue as to the Tenth Amendment rights of
states to which the holding will apply. Congress
intended to preserve state power over regulation of
revenue bonds. See H.R. Rep. No. 100-1011, at 7
(stating that Section 928 “leaves the legal and
contractual limitations of revenue bonds and state
law intact”). Further, the Senate Report noted Tenth
Amendment concerns and the importance of “state
law mandates.” S. Rep. No. 100-506, at 6, 7. This
too is not addressed by the panel or concurrence.24
C.

Lift-Stay Motions Under Section 362

The panel opinion does not discuss one avenue it
presumably leaves open for dissatisfied bondholders
in the situation in which the PRHTA bondholders
(and the Insurers) find themselves: for them to file a
lift-stay motion for cause under Section 362. This
section provides, in relevant part:
On request of a party in interest and after
notice and a hearing, the court shall grant
relief from the stay provided under subsection
(a) of this section, such as by terminating,
annulling, modifying, or conditioning such
stay -- (1) for cause, including the lack of
adequate protection of an interest in property
of such party in interest
....
24

It would have been helpful to receive briefing from the state
attorneys general in this circuit regarding the effects of the
holding on state law and regulation concerning special revenue
bonds.

114a
11 U.S.C. §362(d)(1). I simply do not see this as a
realistic option here. And, though a lift-stay motion
can be a powerful tool, it does not give the special
revenue bondholders the protection that Congress
intended.
In practice, there are inherent risks for the creditor
in moving to lift the stay, including about its ability
to meet a good cause requirement. And, on appeal,
review is only for abuse of discretion. Fields Station
LLC v. Capital Food Corp. of Fields Corner (In Re
Capitol Food Corp. of Fields Corner), 490 F.3d 21, 23
(1st Cir. 2007). Relegating petitioners to seeking a
lift-stay motion as the only recourse for the debtor’s
misappropriation of pledged revenues is contrary to
what Congress intended. That result would not
provide real assurance of timely payment, as
necessary for “orderly marketing of municipal bonds
and notes and continued municipal financing.” S.
Rep. No. 100-506, at 21. The panel’s result imposes
on bondholders the cost and inherent uncertainty of
lift-stay litigation and the delay of payment of the
pledged revenues, plus the general loss in value
caused by that delay. See id. at 11 (“This [automatic
stay] provision is overly broad in Chapter 9,
requiring the delay and expense arising from a
request for relief from the automatic stay . . . .”
(emphasis added)).
IV.
I briefly emphasize my strong disagreement with
the separate concurrence, beyond what I have
already said. I make four points here.

115a
First, as a general matter, the “central issue in this
case” is not simply “whether the creditorbondholders . . . may commence a judicial proceeding
against a Commonwealth debtor to obtain a court
order restoring the flow of post-petition pledged
special revenues from the debtor”; it is whether a
debtor -- here, the Commonwealth -- must continue
to pay pledged special revenues to bondholders
during a bankruptcy proceeding. The enforcement of
that lien stems from the mandatory nature of the
payment of the special revenues, due to their
exemption from the stay. Treating the case as
primarily about lien enforcement, should the debtor
choose not to pay special revenue bondholders,
ignores the broader scheme that Congress has set up
for special revenues during municipal bankruptcy
proceedings (and incorporated into PROMESA for
the Commonwealth’s Title III proceeding).
Second, I cannot see that the concurrence’s narrow
view of Section 922(d) -- that it merely allows special
revenues held by a secured creditor or a trustee to be
applied to the debt during the bankruptcy proceeding
-- effectuates Congress’s stated broader interests in,
for example, allowing cash-strapped municipalities
to raise money and preventing disruptions to the
financial markets. The narrow view is surely part of
the effect of this section, but hardly the complete
effect.
Taking the concurrence’s narrow view is damaging,
because it will likely harm troubled municipalities’
attempts to finance critical systems and projects,
contrary to Congress’s intent here. That is, potential
buyers of revenue bonds with concerns about the
general creditworthiness of a municipality (rather

116a
than concerns with the system or project itself)
would lack any clear assurance of timely payment of
the special revenues, beyond that the potential
buyers could eventually apply funds they already
held once the municipality went into bankruptcy.
This gives scant to no assurance to a diligent
prospective buyer. And contrary to the concurrence,
the emphasized clause in the Senate Report -“including application of the debtor’s funds held by a
secured lender to secure indebtedness” -- is best read
as an example rather than a comprehensive
category, given the following sentence’s broader
reference to “the application of pledged revenues
after payment of operating expenses to the payment
of secured bonds” with no qualification as to the
holder of the special revenues. S. Rep. 100-506, at
11.
Third, the concurrence misconstrues my concern
about the canon of constitutional avoidance. The
view in the panel opinion and concurrence of the
interplay between Section 362 and special revenues
does raise Takings concerns. In a situation like this,
where special revenues have been diverted (taking
the pleadings as true), I cannot see that “the value of
the secured position of a creditor [is] maintained
during the stay.” United Sav. Ass’ns of Tex. v.
Timbers of Inwood Forest Assocs., Ltd. (In re
Timbers of Inwood Forest Assocs., Ltd.) 793 F.2d
1380, 1390 (5th Cir. 1986).
Fourth, as explained above, my constitutional
concerns also go the Tenth Amendment.
This
concern relates specifically to statutory amendments
made forty years after the 1938 Supreme Court case
cited by the concurrence, which is accordingly of

117a
little relevance. See The Bankruptcy Reform Act of
1978, Pub. L. No. 95–598, 92 Stat. 2549; see also
Bekins, 304 U.S. at 51–52.
The potential
interference with state schemes for special revenues,
and for municipal financing more generally, merits
serious consideration.
*

*

*

For these reasons, I respectfully dissent and urge
further review.
By the Court:
Maria R. Hamilton, Clerk
cc:
Hon. Laura Taylor Swain
Frances Rios de Moran, Clerk, United States District
Court for the District of Puerto Rico
Heriberto J. Burgos-Perez
Ricardo F. Casellas-Sanchez
Diana Perez-Seda
Howard Robert Hawkins Jr.
Lary Stromfeld
Mark C. Ellenberg
Ellen M. Halstead
Casey J. Servais
Ellen V. Holloman
Gillian G. Burns
Thomas J. Curtin
Maria Emilia Pico
Martin A. Sosland
Jason W. Callen
Eric Perez-Ochoa
Luis A. Oliver-Fraticelli

118a
Gregory Silbert
Jonathan D. Polkes
Salvatore A. Romanello
Hermann D. Bauer-Alvarez
Timothy W. Mungovan
Stephen L. Ratner
John E. Roberts
Mark David Harris
Martin J. Bienenstock
Daniel Jose Perez-Refojos
Michael A. Firestein
Lary Alan Rappaport
Jeffrey W. Levitan
Andres W. Lopez
Elizabeth Lemond McKeen
Peter M. Friedman
John J. Rapisardi
Suzzanne Uhland
Wandymar Burgos-Vargas
Carlos Lugo-Fiol
Luis R. Roman-Negron
Raul Castellanos-Malave
Jose Ramon Rivera-Morales
Lawrence S. Robbins
Richard A. Rosen
Mark Stancil
Donald Burke
Ariel N. Lavinbuk
Lanora Christine Pettit
Kyle J. Kimpler
Walter Rieman
Andrew N. Rosenberg
Karen R. Zeituni
Diana M. Batlle-Barasorda
Juan J. Casillas-Ayala

119a
Luc A. Despins
Alberto Juan Enrique Aneses-Negron
Georg Alexander Bongartz
Laura Appleby
Aaron Maxwell Krieger
Steven Wilamowsky
Vincent J. Marriott III
Chantelle McClamb
Paul John Ricotta
William W. Kannel

120a
APPENDIX E
_________
STATUTORY PROVISIONS INVOLVED
_________
1.

11 U.S.C. § 362 provides in pertinent part:

Automatic stay
(a) Except as provided in subsection (b) of this
section, a petition filed under section 301, 302, or 303
of this title, or an application filed under section
5(a)(3) of the Securities Investor Protection Act of
1970, operates as a stay, applicable to all entities, of(1) the commencement or continuation, including
the issuance or employment of process, of a
judicial, administrative, or other action or
proceeding against the debtor that was or could
have been commenced before the commencement
of the case under this title, or to recover a claim
against the debtor that arose before the
commencement of the case under this title;
(2) the enforcement, against the debtor or against
property of the estate, of a judgment obtained
before the commencement of the case under this
title;
(3) any act to obtain possession of property of the
estate or of property from the estate or to exercise
control over property of the estate;
(4) any act to create, perfect, or enforce any lien
against property of the estate;
(5) any act to create, perfect, or enforce against
property of the debtor any lien to the extent that

121a
such lien secures a claim that arose before the
commencement of the case under this title;
(6) any act to collect, assess, or recover a claim
against the debtor that arose before the
commencement of the case under this title;
(7) the setoff of any debt owing to the debtor that
arose before the commencement of the case under
this title against any claim against the debtor;
and
(8) the commencement or continuation of a
proceeding before the United States Tax Court
concerning a tax liability of a debtor that is a
corporation for a taxable period the bankruptcy
court may determine or concerning the tax
liability of a debtor who is an individual for a
taxable period ending before the date of the order
for relief under this title.
*

*

*

*

*

(d) On request of a party in interest and after
notice and a hearing, the court shall grant relief from
the stay provided under subsection (a) of this section,
such as by terminating, annulling, modifying, or
conditioning such stay-(1) for cause, including the lack of adequate
protection of an interest in property of such party
in interest;
(2) with respect to a stay of an act against
property under subsection (a) of this section, if-(A) the debtor does not have an equity in such
property; and
(B) such property is not necessary to an
effective reorganization;

122a
(3) with respect to a stay of an act against single
asset real estate under subsection (a), by a
creditor whose claim is secured by an interest in
such real estate, unless, not later than the date
that is 90 days after the entry of the order for
relief (or such later date as the court may
determine for cause by order entered within that
90-day period) or 30 days after the court
determines that the debtor is subject to this
paragraph, whichever is later-(A) the debtor has filed a plan of reorganization
that has a reasonable possibility of being
confirmed within a reasonable time; or
(B) the debtor
payments that--

has

commenced

monthly

(i) may, in the debtor's sole discretion,
notwithstanding section 363(c)(2), be made
from rents or other income generated before,
on, or after the date of the commencement of
the case by or from the property to each
creditor whose claim is secured by such real
estate (other than a claim secured by a
judgment lien or by an unmatured statutory
lien); and
(ii) are in an amount equal to interest at the
then applicable nondefault contract rate of
interest on the value of the creditor's interest
in the real estate; or
(4) with respect to a stay of an act against real
property under subsection (a), by a creditor whose
claim is secured by an interest in such real
property, if the court finds that the filing of the

123a
petition was part of a scheme to delay, hinder, or
defraud creditors that involved either-(A) transfer of all or part ownership of, or other
interest in, such real property without the
consent of the secured creditor or court
approval; or
(B) multiple bankruptcy filings affecting such
real property. If recorded in compliance with
applicable State laws governing notices of
interests or liens in real property, an order
entered under paragraph (4) shall be binding in
any other case under this title purporting to
affect such real property filed not later than 2
years after the date of the entry of such order by
the court, except that a debtor in a subsequent
case under this title may move for relief from
such order based upon changed circumstances
or for good cause shown, after notice and a
hearing. Any Federal, State, or local
governmental unit that accepts notices of
interests or liens in real property shall accept
any certified copy of an order described in this
subsection for indexing and recording.
*
2.

*

*

*

*

11 U.S.C. § 552 provides:

Postpetition effect of security interest
(a) Except as provided in subsection (b) of this
section, property acquired by the estate or by the
debtor after the commencement of the case is not
subject to any lien resulting from any security
agreement entered into by the debtor before the
commencement of the case.

124a
(b)(1) Except as provided in sections 363, 506(c),
522, 544, 545, 547, and 548 of this title, if the debtor
and an entity entered into a security agreement
before the commencement of the case and if the
security interest created by such security agreement
extends to property of the debtor acquired before the
commencement of the case and to proceeds, products,
offspring, or profits of such property, then such
security interest extends to such proceeds, products,
offspring, or profits acquired by the estate after the
commencement of the case to the extent provided by
such security agreement and by applicable
nonbankruptcy law, except to any extent that the
court, after notice and a hearing and based on the
equities of the case, orders otherwise.
(2) Except as provided in sections 363, 506(c), 522,
544, 545, 547, and 548 of this title, and
notwithstanding section 546(b) of this title, if the
debtor and an entity entered into a security
agreement before the commencement of the case and
if the security interest created by such security
agreement extends to property of the debtor acquired
before the commencement of the case and to amounts
paid as rents of such property or the fees, charges,
accounts, or other payments for the use or occupancy
of rooms and other public facilities in hotels, motels,
or other lodging properties, then such security
interest extends to such rents and such fees, charges,
accounts, or other payments acquired by the estate
after the commencement of the case to the extent
provided in such security agreement, except to any
extent that the court, after notice and a hearing and
based on the equities of the case, orders otherwise.

125a
3.

11 U.S.C. § 904 provides:

Limitation on jurisdiction and powers of court
Notwithstanding any power of the court, unless the
debtor consents or the plan so provides, the court
may not, by any stay, order, or decree, in the case or
otherwise, interfere with-(1) any of the political or governmental powers of
the debtor;
(2) any of the property or revenues of the debtor;
or
(3) the debtor's use or enjoyment of any incomeproducing property.
4.

11 U.S.C. § 922 provides:

Automatic stay of
against the debtor

enforcement

of

claims

(a) A petition filed under this chapter operates as a
stay, in addition to the stay provided by section 362
of this title, applicable to all entities, of-(1) the commencement or continuation, including
the issuance or employment of process, of a
judicial, administrative, or other action or
proceeding against an officer or inhabitant of the
debtor that seeks to enforce a claim against the
debtor; and
(2) the enforcement of a lien on or arising out of
taxes or assessments owed to the debtor.
(b) Subsections (c), (d), (e), (f), and (g) of section
362 of this title apply to a stay under subsection (a)

126a
of this section the same as such subsections apply to
a stay under section 362(a) of this title.
(c) If the debtor provides, under section 362, 364,
or 922 of this title, adequate protection of the
interest of the holder of a claim secured by a lien on
property of the debtor and if, notwithstanding such
protection such creditor has a claim arising from the
stay of action against such property under section
362 or 922 of this title or from the granting of a lien
under section 364(d) of this title, then such claim
shall be allowable as an administrative expense
under section 503(b) of this title.
(d) Notwithstanding section 362 of this title and
subsection (a) of this section, a petition filed under
this chapter does not operate as a stay of application
of pledged special revenues in a manner consistent
with section 927 of this title to payment of
indebtedness secured by such revenues.
5.

11 U.S.C. § 928 provides:

Post petition effect of security interest
(a) Notwithstanding section 552(a) of this title and
subject to subsection (b) of this section, special
revenues acquired by the debtor after the
commencement of the case shall remain subject to
any lien resulting from any security agreement
entered into by the debtor before the commencement
of the case.
(b) Any such lien on special revenues, other than
municipal betterment assessments, derived from a
project or system shall be subject to the necessary
operating expenses of such project or system, as the
case may be.

127a
6.
48 U.S.C. § 2141 provides in pertinent
part:
Approval of fiscal plans
(a) In general
As soon as practicable after all of the members and
the Chair have been appointed to the Oversight
Board in accordance with section 2121(e) of this title
in the fiscal year in which the Oversight Board is
established, and in each fiscal year thereafter during
which the Oversight Board is in operation, the
Oversight Board shall deliver a notice to the
Governor providing a schedule for the process of
development, submission, approval, and certification
of Fiscal Plans. The notice may also set forth a
schedule for revisions to any Fiscal Plan that has
already been certified, which revisions must be
subject to subsequent approval and certification by
the Oversight Board. The Oversight Board shall
consult with the Governor in establishing a schedule,
but the Oversight Board shall retain sole discretion
to set or, by delivery of a subsequent notice to the
Governor, change the dates of such schedule as it
deems appropriate and reasonably feasible.
(b) Requirements
(1) In general
A Fiscal Plan developed under this section shall,
with respect to the territorial government or
covered territorial instrumentality, provide a
method to achieve fiscal responsibility and access
to the capital markets, and-(A) provide for estimates of revenues and
expenditures in conformance with agreed
accounting standards and be based on--

128a
(i) applicable laws; or
(ii) specific bills that require enactment in order
to reasonably achieve the projections of the
Fiscal Plan;
(B) ensure the funding of essential public
services;
(C) provide adequate funding for public pension
systems;
(D) provide for the elimination of structural
deficits;
(E) for fiscal years covered by a Fiscal Plan in
which a stay under subchapters III or IV is not
effective, provide for a debt burden that is
sustainable;
(F) improve fiscal governance, accountability, and
internal controls;
(G) enable the achievement of fiscal targets;
(H) create independent forecasts of revenue for
the period covered by the Fiscal Plan;
(I) include a debt sustainability analysis;
(J) provide for capital
investments necessary to
growth;

expenditures and
promote economic

(K)
adopt
appropriate
recommendations
submitted by the Oversight Board under section
2145(a) of this title;
(L) include such additional information as the
Oversight Board deems necessary;
(M) ensure that assets, funds, or resources of a
territorial instrumentality are not loaned to,
transferred to, or otherwise used for the benefit of

129a
a covered territory or another covered territorial
instrumentality of a covered territory, unless
permitted by the constitution of the territory, an
approved plan of adjustment under subchapter
III, or a Qualifying Modification approved under
subchapter VI; and
(N) respect the relative lawful priorities or lawful
liens, as may be applicable, in the constitution,
other laws, or agreements of a covered territory or
covered territorial instrumentality in effect prior
to June 30, 2016.
*
7.

*

*

*

*

48 U.S.C. § 2165 provides:

Limitation on jurisdiction and powers of court
Subject to the limitations set forth in subchapters I
and II of this chapter, notwithstanding any power of
the court, unless the Oversight Board consents or the
plan so provides, the court may not, by any stay,
order, or decree, in the case or otherwise, interfere
with-(1) any of the political or governmental powers of
the debtor;
(2) any of the property or revenues of the debtor;
or
(3) the use or enjoyment by the debtor of any
income-producing property.

